<html>
<title> - TSA MODERNIZATION: IMPROVEMENTS TO AVIATION SECURITY</title>
<body><pre>[Senate Hearing 115-436]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-436
 
                          TSA MODERNIZATION: 
                   IMPROVEMENTS TO AVIATION SECURITY

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
                             


                Available online: http://www.govinfo.gov
                
                
                          _________

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-309 PDF             WASHINGTON : 2019      
               
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

ROY BLUNT, Missouri, Chairman        MARIA CANTWELL, Washington, 
ROGER F. WICKER, Mississippi             Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
SHELLEY CAPITO, West Virginia        TAMMY BALDWIN, Wisconsin
CORY GARDNER, Colorado               TAMMY DUCKWORTH, Illinois
TODD YOUNG, Indiana      
MAGGIE HASSAN, New Hampshire
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 28, 2017...............................     1
Statement of Senator Blunt.......................................     1
Statement of Senator Cantwell....................................     2
Statement of Senator Inhofe......................................    18
    Letter dated November 8, 2017 to Hon. James M. Inhofe from 
      Michael R. White, Vice President, Government and Industry 
      Relations, Cargo Network Services Corp.....................    20
Statement of Senator Klobuchar...................................    21
Statement of Senator Hassan......................................    22
Statement of Senator Booker......................................    26
Statement of Senator Markey......................................    28
Statement of Senator Duckworth...................................    31
Statement of Senator Schatz......................................    33
Statement of Senator Thune.......................................    35
Statement of Senator Blumenthal..................................    37

                               Witnesses

Brian C. Weiler, A.A.E., Director of Aviation, Springfield-
  Branson National Airport.......................................     3
    Prepared statement...........................................     4
Stephen A. Alterman, President, Cargo Airline Association; and 
  Chairman, Aviation Security Advisory Committee, TSA............     7
    Prepared statement...........................................     8
Sissy Pressnell, Vice Chairman, Security Manufacturers Coalition.    10
    Prepared statement...........................................    11
Michael White, Vice President, Government and Industry Relations, 
  Cargo Networks Services Corporation, International Air 
  Transport Association..........................................    13
    Prepared statement...........................................    15

                                Appendix

Response to written questions submitted by Hon. Gary Peters to:
    Brian Weiler.................................................    39
Response to written questions submitted to Stephen Alterman by:
    Hon. Gary Peters.............................................    39
    Hon. Tammy Duckworth.........................................    40
Response to written questions submitted by Hon. Gary Peters to:
    Sissy Pressnell..............................................    40
    Michael White................................................    41


                          TSA MODERNIZATION: 
                   IMPROVEMENTS TO AVIATION SECURITY

                              ----------                              


                      THURSDAY, SEPTEMBER 28, 2017

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Subcommittee, presiding.
    Present: Senators Blunt [presiding], Thune, Fischer, 
Sullivan, Inhofe, Capito, Gardner, Young, Cantwell, Klobuchar, 
Blumenthal, Schatz, Markey, Booker, Baldwin, Duckworth, and 
Hassan.

             OPENING STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Senator Inhofe has pointed out that we have 
a vote at 10:30, so he's right, and we will start, and we'll 
work our way through that. I think it's just one vote, and if 
we do that, we'll do that in a way that we don't disrupt the 
hearing.
    So let's call the hearing to order. We certainly had an 
earlier hearing in February of this year, where we had a number 
of the stakeholders come in and talk about what needed to 
happen at TSA. I'll say before we get well started with this, 
when I talk to anybody about air travel, whether they're 
running an airline or running the TSA agency or running an 
airport, I usually say there are two items that every member of 
the Senate thinks they're an expert on. One is politics, and 
two is air travel, and we do this about as much as anybody, so 
you'll have to kind of acknowledge our predisposition there to 
think we know more than we very well may know about the 
challenges you face.
    But, certainly, the TSA obligation, the TSA challenges are 
significant. Everyone knows that the airports, the airlines, 
the transportation that's involved in tourism as well as the 
daily business of the country--critically important on what 
happens at airports and how we do that. The TSA challenge is 
obviously formidable. In 2016, TSA officers screened 738 
million passengers, more than 2 million a day. In addition, TSA 
screened 466 million checked bags and over 24 million airport 
employees. So to get that right and to get it right every time 
is a huge challenge, and I think there is a lot of appreciation 
for just how hard this job is.
    In our February hearing and as a result of the events of 
the baggage claim area at Fort Lauderdale Airport that had 
happened just before that and the bombing at the public 
terminal in Brussels, Belgium, we have become well aware of the 
various security challenges at airports themselves in addition 
to getting people on and off airplanes in a safe way.
    We know that we need to speed up technology evaluation and 
deployment of the best technology. We need to improve 
communication with the traveling public on wait times; identify 
how to leverage the PreCheck program; not be afraid to get 
creative and test new ways of doing things, such as one of the 
things we're going to talk about today, the idea of automating 
the exit line and impacting in a positive way the bottom line.
    I'm pleased that Chairman Thune, myself, Ranking Member 
Nelson, and Senator Cantwell have a bill that we are looking at 
today. We're pleased to have the witnesses that I'll introduce 
in a moment with us here today, and I'd like to turn to Senator 
Cantwell for her comments.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
having this important hearing about improving security in the 
aviation system. I'd like to thank our distinguished panelists 
as well. They deal with aviation security on a daily basis, and 
I look forward to the opportunity to hear from them about those 
issues.
    I was also glad for the opportunity to discuss the TSA 
Modernization bill, which was just introduced, as the Chairman 
of the Subcommittee just said, by Chairman Thune, Ranking 
Member Nelson, and Senator Blunt and myself. The bill lays out 
what I believe is a strong framework for TSA to continue 
modernization and technology procedures to improve security and 
to keep the traveling public moving. I look forward to working 
with our colleagues on that.
    In my home state, Sea-Tac Airport has been one of the 
fastest--wait a minute--the fastest growing large airport in 
the country for three consecutive years. So I can guarantee you 
this is a very daily issue for us. I want to thank then 
Administrator Neffenger for paying close attention to this, and 
I hope that Administrator Pekoske will also make improvements.
    The bill that we introduced yesterday gives them the 
opportunity as an agency to develop testing and deployment of 
new technologies to improve security and efficiency for our 
traveling public. The airports and airlines deserve credit for 
their security work that they often do at their own expense. 
But we need to keep making improvements as we move forward. Our 
bill would give airports more flexibility to adapt to their own 
needs. The TSA Modernization Act would give airports the 
ability to train and deploy canine teams, some of the most 
effective tools that we have in making sure that our airports 
work in a secure and safe and efficient manner.
    Under the new language, large airports that do not have 
their full complement of TSA passenger canine screenings would 
be able to train dogs through improved third-party 
certification programs working with TSA. While the flexibility 
is a vital tool for fast growing airports like Sea-Tac, it is 
also important to note that we are giving airports the ability 
to increase TSA resources and to help make sure that we are 
making improvements to the team.
    So I look forward to hearing from our witnesses today about 
these vital issues, and I thank the Chairman for this important 
hearing about technology and security.
    Senator Blunt. Thank you, Senator Cantwell.
    We have our panelists with us today: Brian Weiler is the 
Director of Aviation at my hometown airport, the Springfield-
Branson National Airport; Steve Alterman, the President of 
Cargo Airlines Association, Chairman of the Aviation Security 
Advisory Committee, and Mr. Alterman was with us in February, 
and we're glad that you were able to come back today; Sissy 
Pressnell, the Vice President of Strategic Business Development 
and Stakeholder Relations, Smith Detention, and Vice Chairman 
of the Security Manufacturers Coalition; and Mr. Michael White, 
Vice President, Government and Industry Relations, Cargo 
Network Services Corporation, International Air Transportation 
Association.
    So, Mr. Weiler, if you'll start, and we'll limit each of 
you to 5 minutes, and you don't have to take all that time if 
you don't want, and then we'll come to questions.

  STATEMENT OF BRIAN C. WEILER, A.A.E., DIRECTOR OF AVIATION, 
              SPRINGFIELD-BRANSON NATIONAL AIRPORT

    Mr. Weiler. Thank you. Good morning, Chairman Blunt, 
Ranking Member Cantwell, and members of the Subcommittee. Thank 
you for the opportunity to discuss security modernization 
efforts at the Springfield-Branson National Airport where I 
serve as Director.
    My airport is the third largest in the state of Missouri, 
serving a million passengers with 30 daily flights by four 
airlines. We also house a military base, air cargo operation, 
college flight training program, airline maintenance base, and 
Customs port of entry. The airport's 10-gate terminal was built 
in 2009, and the TSA security checkpoint configuration is two 
standard lanes with AIT equipment and one PreCheck lane.
    The City of Springfield owns and operates the airport as an 
enterprise fund, which means we receive no local tax support, 
and all revenue generated needed to run the airport must be 
from user fees and rents. We focus on maximizing non-
aeronautical revenue to keep our airline fees low. Airline 
passengers have increased more than 30 percent in five years at 
my airport by adding routes, frequency, and using larger 
aircraft. While this growth is good, it has, though, put a 
strain on our infrastructure, personnel, and financial 
resources.
    FAA grants have become increasingly hard to get, and the 
Federal cap on local PFCs at $4.50 has not been increased in 17 
years. We recently had to borrow $2 million to purchase 
specialized snow equipment to meet new FAA requirements, and we 
are making emergency pavement repairs to a primary taxiway that 
we were unable to get an FAA grant to fix. It is a constant 
challenge to maintain development of the airport to meet the 
growing public needs but with very limited resources.
    Security is a shared responsibility, and it is absolutely 
imperative that TSA, airport operators, and our industry 
partners collaborate, communicate, and remain focused on the 
critical roles that each of us play. On exit lane staffing, 
Congress has set in law that this is a TSA responsibility, and 
we appreciate that the bill continues funding to meet this 
obligation. My terminal has one exit lane that is staffed 14 
hours a day by TSA when the checkpoint is open and then 6 hours 
by the airport until the last arrival.
    We have wanted to automate the exit lane for years, really 
to save money for both TSA and us, but the $300,000 cost was 
outside of our reach. The bill includes a new pilot program to 
implement and evaluate automated exit lane technology at small 
and non-hub airports. We see this win-win approach as a 
meaningful step forward and are pleased with the proposed 
robust Federal cost-share to make it attainable for smaller 
airports.
    My airport has its own police department with 10 officers. 
We are one of 300 airports that utilize the LEO reimbursement 
program, but I can testify that the current reimbursement rate 
only defrays a small portion of the actual cost to meet 
security requirements. We have seen a 28 percent reduction in 
LEO reimbursements since 2011, which currently covers 60 
percent of the cost, and right now, it only covers 12 percent 
of our police personnel budget.
    We do appreciate the recognition and the importance of this 
program and the provisions to increase funding, the number of 
awards, and the funding per award. The commitment to enhance 
Federal support is very important for airports.
    The Springfield Airport has also seen a 25 percent increase 
in our expedited screen rate for passengers since PreCheck was 
first implemented. However, I continue to hear complaints from 
my customers about a cumbersome enrollment process and 
applicants waiting several months to get an appointment 
interview with an authorized enrollment provider. We appreciate 
your focus on enhancing enrollment and new provisions aimed at 
increasing PreCheck participation.
    In our view, TSA should publish its enrollment standards 
and any private sector entity meeting IT standards be allowed 
to submit applicant data for vetting by the TSA. This would 
ensure new and easier means for enrolling potential 
participants, including kiosks at airports and mobile device 
platforms.
    In conclusion, I want to again express my appreciation for 
the opportunity to testify. I commend Senator Blunt and 
subcommittee members for your work to provide airports and TSA 
with additional tools to meet threats that continue to emerge. 
As you move forward in the face of continued Federal budget 
constraints, I urge you to recognize that we cannot neglect or 
cut back on the TSA personnel or other resources needed to 
maintain effective and efficient security screening at 
airports, large or small, nor should the cost of this Federal 
security burden be shifted to local airports with limited 
budgets.
    I look forward to answering any questions.
    [The prepared statement of Mr. Weiler follows:]

 Prepared Statement of Brian C. Weiler, A.A.E., Director of Aviation, 
                  Springfield-Branson National Airport
    Chairman Blunt, Ranking Member Cantwell, and members of the 
subcommittee, thank you for the opportunity to discuss security 
modernization efforts at the Springfield-Branson National Airport, 
where I serve as airport director. I am also the immediate Past 
President of the Missouri Airport Managers Association and have been 
for over 20 years an accredited member of the American Association of 
Airport Executives, which represents thousands of men and women across 
the country who manage and operate our Nation's airports.
    My airport is the third largest in the State of Missouri and 
classified by the Federal Aviation Administration as a small hub 
airport based on airline passenger volume. We will serve about a 
million passengers in 2017 with four airlines (American, Delta, United, 
and Allegiant) and nonstop service to 13 destinations, including an 
average 30 daily flights to six major airline hubs. The airport also 
houses a Missouri Air National Guard helicopter repair base, UPS/FedEx 
air cargo operations, college flight training program, airline 
maintenance base, and is a U.S. Customs and Border Protection Port of 
Entry for general aviation and corporate aircraft.
    The airport's 10-gate, 275,000 square foot airline terminal was 
built in 2009. The current three-lane TSA security checkpoint 
configuration is two standard lanes with Advanced Imaging Technology 
(AIT) equipment and one PreCheck lane with a metal detector. Baggage 
operations are supported with two Explosive Detection System (EDS) CT80 
equipment. TSA management for the airport also oversees security 
operations at six non-hub commercial service airports in our area with 
one Assistant Federal Security Director (AFSD) and three Transportation 
Security Managers (TSMs). Recent security enhancements include 
installation of new AIT equipment in 2014 and PreCheck in 2016. We are 
scheduled to get a dedicated Known Crewmember Lane in November of this 
year.
    The City of Springfield owns and operates the airport as a 
municipal enterprise fund department, which means it is run like a 
business and receives no local tax support. All revenue needed to cover 
operating costs is generated from user fees, rents, and charges. We 
focus on generating as much non-aeronautical revenue as possible to 
keep airline fees low and maintain an environment supporting airline 
service growth, which is critical to our regional economy. Some 
examples include operating the 23-county Foreign Trade Zone and 
redevelopment of our former airline terminal into office space for over 
1,000 employees. The airport houses some 40 businesses, employees over 
2,000 people, and generates an estimated $500 million annually in 
economic impact for Southwest Missouri.
    Airline passengers handled by the airport have grown more than 30 
percent over the last five years, which is more than twice the national 
average annual growth rate of 2-3 percent. Working with our airline 
partners, we have added multiple routes, increased frequency, and are 
transitioning to larger aircraft from the 50-seat regional jets that 
were primarily serving our markets. While this growth is good and 
reflects a strong local economy, it has put a strain on airport 
infrastructure, personnel, and financial resources.
    FAA Airport Improvement Program grants have become increasingly 
hard to get, and the Federal cap on local Passenger Facility Charges 
(PFCs) of $4.50 has not been increased in 17 years to even keep pace 
with inflation. Our airport recently had to borrow $2 million from a 
local bank to replace three pieces of 35 year old specialized snow 
removal equipment needed to comply with new FAA runway condition 
reporting requirements. We are also in the process of making emergency 
pavement repairs to a primary taxiway that we are unable to get an FAA 
grant to rebuild. It is a constant challenge to maintain and develop 
the airport to meet growing public needs within very limited resources, 
which is why we continue to ask Congress for more local flexibility 
with the PFC.
    I am pleased to say that airport management enjoys an excellent 
working relationship with and has the highest regard for TSA managers 
and personnel who work at the Springfield-Branson National Airport. 
This was also confirmed with the public in a recent passenger 
satisfaction study that scored efficient/friendly TSA personnel and 
clean restrooms as our two highest attributes. We all take our jobs 
seriously and partner together daily to maintain a high level of 
security for the traveling public in a customer service environment.
    Security is a shared responsibility at my airport and every other 
commercial service airport across the country. It is absolutely 
imperative that TSA, airport operators, and our industry partners 
collaborate, communicate, and remain keenly focused on the critical 
roles that each of us play in ensuring that airport facilities are as 
safe, secure, and efficient as possible to protect and serve the 
traveling public.
    This background leads to current efforts underway to improve 
aviation security and my input on four areas within the proposed 
legislation that the subcommittee may soon consider.
    Exit Lane Technology and Staffing: Congress has established in law 
that exit lane staffing is clearly a TSA responsibility. My terminal 
has a fairly simple design with one exit lane, which is staffed by TSA 
about 14 hours a day (4:00am--6:00pm) when the checkpoint is open; then 
by airport staff for an additional six hours after the last departure 
at about 6:00pm until the last arrival around midnight. The airport has 
wanted to automate our exit lane for years, but with no Federal cost-
share program currently available, the approximate $300,000 cost is 
outside of our financial ability. Since TSA and the airport staff our 
exit lane during different times of the day, both would benefit and 
save money by automating our exit lane.
    The draft legislation includes a pilot program to implement and 
evaluate automated exit lane technology at small and non-hub airports 
under a new Federal cost-share program. While not for every airport, 
such a program would give airports like Springfield the ability to work 
with TSA to automate our exit lane and save money/personnel resources 
for both agencies. We strongly support this win-win approach to 
resolving this issue, but ask that the program be implemented at an 85 
percent federal/15 percent local cost-share so it is attainable for 
smaller airports that are budget constrained.
    Law Enforcement Officer Reimbursement Grant Program: The 
Springfield airport has its own Airport Police Department with 10 sworn 
officers and a wide area of responsibility over 3,300 acres of 
property, including providing law enforcement support to the TSA 
security checkpoint. We are one of approximately 300 airports that 
utilize the LEO reimbursement grant program, but can testify the 
current reimbursement rate of $20/hour only defrays a small portion of 
our costs to meet security requirements. We have experienced a 28 
percent reduction in LEO reimbursement since 2011. Our current 
reimbursement of $104,000 covers about 60 percent of the $172,000 it 
costs to provide law enforcement support to the TSA checkpoint and is 
just 12 percent of our annual police personnel budget.
    While we appreciate the inclusion of language continuing the LEO 
reimbursement program at the current funding level of $45 million, the 
legislation also proposes to significantly broaden LEO responsibilities 
beyond those covered by existing security requirements. This includes 
increasing officer presence in public areas like baggage claim, ticket 
counters, and nearby roads. While these are certainly worthy goals, 
adding program responsibilities while keeping funding stagnant creates 
a significant unfunded mandate on airport operators. This would be 
difficult for small airports, especially those that utilize local law 
enforcement (County Sheriff or City Police) to meet these new 
requirements without hiring additional officers and incurring 
additional costs.
    PreCheck: The Springfield airport has seen a 25 percent increase in 
our expedited screen rate of our passengers since PreCheck was first 
implemented at our airport in 2016. We see this as significant progress 
and support further expansion of the program. However, while TSA 
continues to slowly grow participation in PreCheck, I continue to hear 
complaints from my customers about a cumbersome enrollment process and 
applicants waiting several months to get an appointment interview with 
an authorized enrollment provider, which there is only one serving my 
regional area. Just last week, one of my staff checked and the first 
available appointment was almost three months out.
    We suggest that TSA should publish its enrollment standards and 
that any private sector entity that meets information technology 
standards to connect into the Federal Government be allowed to submit 
applicant data for vetting and eligibility approved by TSA. This would 
ensure that there are numerous, creative, and easier means for 
enrolling potential participants, including using kiosks at airports, 
mobile devices, or other mobile enrollment platforms. Many airports 
would be willing to host PreCheck enrollment fairs and leverage 
existing resources, including the ability to facilitate fingerprint 
based background checks.
    Security Checkpoint Wait Times: The average security checkpoint 
wait time at my airport is approximately 13 minutes, which many 
travelers find to be acceptable. However, as the airport continues to 
grow, we are seeing significantly longer wait times more often during 
peak season and peak times during the day. We support the requirement 
for TSA to make the length of airport wait times at each security 
checkpoint available to the public within one year. However, we suggest 
you consider adding more specificity to this requirement.
    One area is in the definition of ``wait time.'' TSA will say this 
time begins when the traveler enters the checkpoint line until they 
present their information to the travel document checker. TSA's 
definition does not include the time a passenger waits to place their 
personal items in bins to go into x-ray equipment or when they are 
screened for threat objects. The traveling public would likely define 
``wait time'' as starting when they enter the line until they retrieve 
their screened items at the end of the checkpoint. Including a clear 
definition in the bill would help ensure there is no confusion as to 
what is being measured.
    In conclusion, I want to again express my appreciation for the 
opportunity to testify today regarding aviation security, which is 
something that I and my fellow airport executives focus on and 
prioritize every day. I commend you, Senator Blunt and members of the 
subcommittee, for your work in trying to provide airports and TSA with 
additional tools to meet the challenges and threats that continue to 
emerge through your work on the legislation that is the subject of 
today's hearing.
    As you move forward with this and other potential legislation, I 
urge you to recognize that we cannot neglect or cutback on the TSA 
personnel and other resources needed to maintain effective and 
efficient security screening of passengers/baggage at airports across 
the country, large or small. Nor should the costs of this Federal 
security burden be shifted to local airports with limited budgets. Air 
travel is projected to grow significantly in the years ahead and my 
airport colleagues and I welcome the opportunity to partner with TSA to 
enhance security throughout the airport environment.
    I look forward to answering any questions you might have.

    Senator Blunt. Thank you, Mr. Weiler.
    Mr. Alterman?
    And if you're listening to the pounding here, welcome to 
the Russell Building. It has been this way--they've been 
working on our side of this hallway since January, and it's 
like that every day.
    [Laughter.]
    Senator Blunt. And the air conditioning won't switch off.
    Mr. Alterman.

          STATEMENT OF STEPHEN A. ALTERMAN, PRESIDENT,

            CARGO AIRLINE ASSOCIATION; AND CHAIRMAN,

           AVIATION SECURITY ADVISORY COMMITTEE, TSA

    Mr. Alterman. Thank you, Mr. Chairman and members of the 
Subcommittee. Good morning. My name is Steve Alterman, and I'm 
President of the Cargo Airline Association. I also have the 
honor of currently serving as the Chair of the Aviation 
Security Advisory Committee at TSA.
    When I testified before you in February, I mentioned 
several issues involving security policy that were having a 
significant impact on either the air cargo industry or on the 
work of ASAC. These issues included the use of third-party 
canines to screen air cargo, the need for a fixed five-year 
term for the TSA administrator, and the activity of ASAC in a 
number of areas. Much has happened since February, but the 
issues remain basically the same.
    To put today's comments on these issues and your proposed 
legislation into context, I'd like to take a minute or two to 
describe the events that have happened since February. First of 
all and perhaps most significant, we have a new Administrator, 
and I can tell you that from the ASAC perspective, it's really 
nice to have a permanent Administrator there. I've had six 
bosses since 3 years ago taking over the Chair of ASAC, and 
it's nice to have an Administrator who I hope will be there for 
the long term.
    The ASAC has continued its work schedule, including but not 
limited to the submission of its report on the Checkpoint of 
the Future to both TSA and Congress. We had new recommendations 
from our General Aviation Subcommittee on how to modify and 
enhance these security programs for the general aviation 
community, and we continue to monitor the implementation of 
recommendations relating to airport worker screening.
    In addition, TSA is now moving forward to develop a program 
that would allow the third-party canine screening of air cargo. 
This program is not yet finalized, and the devil is always in 
the details, but there has been significant movement. And, of 
course, the House of Representatives has passed its version of 
a DHS authorization bill. It's against this background that 
today's comments are submitted.
    The proposed Senate TSA bill is a much needed piece of 
legislation. We urge that it be passed as soon as possible and 
that any differences between the House and Senate version be 
quickly resolved. We are particularly encouraged by the 
provision to give the TSA Administrator a fixed 5-year term of 
office. The instability caused by a rapid turnover at the top 
of the agency creates internal chaos and inhibits the ability 
to plan strategically for the challenges ahead. We also support 
wording in the proposed legislation that would make the 5-year 
term applicable to the current Administrator. I would think 
that's very important.
    The bill also contains several separate provisions related 
to the activities of the Aviation Security Advisory Committee. 
On behalf of the members of ASAC, I want to thank you for your 
confidence in our work. We look forward to working with TSA to 
implement any provision in the proposed legislation that 
requires our assistance, and I do note there are four or five 
of those in the bill and we look forward to working with you on 
them.
    From the air cargo perspective, perhaps the most 
significant provisions in the legislation relate to the use of 
third-party canines to screen air cargo. As noted on numerous 
previous occasions, the members of the all-cargo air carrier 
industry strongly support this program, and we thank the 
Committee for including a third-party canine provision in the 
proposed legislation.
    We believe that the proposed Section 234 relating to the 
screening of air cargo by third-party canines contains the 
appropriate elements and succinctly lays out the process to be 
followed by TSA. While, as noted previously, TSA is in the 
process of moving in the direction of adopting the elements 
described, legislation is needed to ensure that the program is 
made permanent and not subject to future personnel changes 
within the agency.
    And, finally, while I'm on the subject of air cargo 
security, we also strongly believe that TSA needs a more 
centralized focus on the air cargo supply chain. At the present 
time, TSA policies that focus on air cargo are not centralized, 
but rather are spread across the agency in a somewhat 
uncoordinated manner. This structure, or lack of structure, has 
often led to confusion and an uncoordinated application of 
security standards.
    Thank you very much for the opportunity to testify, and I'd 
be happy to answer any questions.
    [The prepared statement of Mr. Alterman follows:]

  Prepared Statement of Stephen A. Alterman, President, Cargo Airline 
  Association; and Chairman, Aviation Security Advisory Committee, TSA
    Mr. Chairman and Members of the Subcommittee:

    Good Morning. My name is Steve Alterman and I am the President of 
the Cargo Airline Association, the nationwide organization representing 
the interests of the all-cargo segment of the aviation community.\1\ I 
also have the honor of currently serving as the Chairman of the 
Aviation Security Advisory Committee (ASAC), the Federal committee 
established by Congress to advise the TSA Administrator on issues 
relating to all areas of aviation security. Thank you for inviting me 
to testify today.
---------------------------------------------------------------------------
    \1\ Association members include direct air carriers ABX Air, Atlas 
Air, Federal Express Corporation, Kalitta Air and United Parcel Service 
Co., as well as Associate Members Amazon, DHL Express, Memphis Airport, 
Louisville Airport, Ft. Wayne Airport, Columbus (OH) Airport, Spokane 
Airport and the Alaska Airport System.
---------------------------------------------------------------------------
    When I testified before you in February, I mentioned several issues 
involving security policy that were having a significant impact on 
either the air cargo industry or on the work of ASAC. These issues 
included the use of third-party canines to screen air cargo; the need 
for a fixed five-year term for the TSA Administrator; and the activity 
of ASAC in a number of areas. Much has happened since February, but the 
basic issues remain the same.
    To put today's comments on these issues and your proposed 
legislation into context, I would like to take a minute or two 
describing the significant events that have taken place between 
February and today:

  <bullet> We have a new Administrator at TSA.

  <bullet> The ASAC has continued its work schedule, including, but not 
        limited to, the submission of its report on the Checkpoint of 
        the Future to TSA and Congress, and the continued monitoring of 
        the implementation of recommendations relating to airport 
        worker screening.

  <bullet> TSA is now moving forward to develop a program that would 
        allow the third-party canine screening of air cargo. This 
        program is not yet finalized, and the devil is always in the 
        details, but there has been significant movement.

  <bullet> The House of Representatives has passed its version of a DHS 
        Authorization bill (H.R. 2825) that includes provisions similar 
        to those in the Senate's proposed bill.

    It is against this background that today's comments are submitted.
    The proposed Senate TSA bill is a much-needed piece of legislation. 
We urge that it be passed as soon as possible and that any differences 
between the Senate and House versions be quickly resolved. We are 
particularly encouraged by the provision to give the TSA Administrator 
a fixed five-year term of office. The instability caused by a rapid 
turnover at the top of the Agency creates internal chaos and inhibits 
the ability to plan strategically for the challenges ahead. We also 
support wording in the proposed legislation that would make the five-
year term applicable to the current Administrator without the need for 
a re-nomination and confirmation.
    The bill also contains several separate provisions related to the 
activities of the Aviation Security Advisory Committee. On behalf of 
the members of ASAC, I want to thank you for your confidence in our 
work. We look forward to working with TSA to implement any provision in 
the proposed legislation that requires our assistance.
    From the air cargo perspective, perhaps the most significant 
provisions in the legislation relate to the use of third-party canines 
to screen air cargo. As noted on numerous previous occasions, the 
members of the all-cargo air carrier industry strongly support this 
program and we thank the committee for including a third-party canine 
provision in the proposed legislation. We believe that the proposed 
section 234 relating to the screening of air cargo by third-party 
canines contains the appropriate elements and succinctly lays out the 
process to be followed by TSA. While, as noted previously, TSA is in 
the process of moving in the direction of adopting the elements 
described, legislation is needed to ensure that the program is made 
permanent and not subject to future personnel changes within the 
Agency.
    And finally, while I am on the subject of air cargo security, we 
strongly believe that TSA needs a more centralized focus on the air 
cargo supply chain. At the present time, TSA policies that focus on air 
cargo are not centralized, but rather are spread across the Agency in a 
somewhat uncoordinated manner. This structure (or lack of structure) 
has often led to confusion and an uncoordinated application of security 
standards.
    Thank you very much. I would be happy to answer any questions.

    Senator Blunt. Thank you.
    Ms. Pressnell.

         STATEMENT OF SISSY PRESSNELL, VICE CHAIRMAN, 
                SECURITY MANUFACTURERS COALITION

    Ms. Pressnell. Good morning, Mr. Chairman. Chairman Blunt, 
Ranking Member Cantwell, and members of the Subcommittee, on 
behalf of the eight members of the Security Manufacturers 
Coalition, thank you for the opportunity to share collective 
industry priorities and key recommendations for modernizing and 
improving aviation security.
    My name is Sissy Pressnell, and I'm the Vice Chair of the 
Security Manufacturers Coalition and also serve as the Chair of 
its Policy Committee. The SMC is the unified voice of leading 
security technology companies with manufacturing operations and 
offices in 10 states. The SMC generates 7,000 direct and 20,000 
indirect jobs in everything from research and development to 
engineering and advanced product manufacturing. The companies 
have certified equipment deployed around the world.
    The SMC recognizes that Congress must deal with substantial 
funding constraints and demands on its limited resources in an 
attempt to meet the needs of competing stakeholders. When 
considering aviation security, the lack of adequate funding and 
ever-changing priorities impedes long-term innovation at a time 
when threats against the system continue to evolve and present 
potential adverse effects on international travel and commerce.
    TSA must embark on a requirements-driven, multi-year 
program that will immediately accelerate the development, 
testing, and deployment of next-generation technology as well 
as the initiation of system upgrades for all checkpoint and 
checked baggage technology with new software and detection 
algorithms. The SMC recommends ending the diversion of a 
portion of the passenger security fee that is now dedicated for 
deficit reduction to pay for checkpoint development and 
deployment of new technology enhancements. In the longer term, 
we support a multi-year approach that includes a checkpoint 
equipment capital fund similar to the checked baggage program 
to provide consistent availability of resources for technology 
acquisitions.
    Industry needs more information and more direction from TSA 
to ensure that manufacturing as well as research and 
development investment plans are truly aligned with technology 
capability gaps and actual government acquisition needs. For 
technology manufacturers, as you know, the path to technology 
acquisition is a very long one. It takes an average of 3 to 5 
years and sometimes up to 10 to deploy technology capabilities 
at the airports.
    Congress must direct DHS and TSA to develop a plan to 
completely reconstitute the equipment test and evaluation 
process with a target goal of reducing the time-frame to no 
more than one year from the date of laboratory certification. 
This should start with a formal review of the test and 
evaluation process and the addition of resources dedicated to 
hiring additional testing experts to manage the transition to 
next-generation equipment. Additional efficiencies can also be 
realized by establishing a formal third-party test and 
evaluation process requiring TSA to actually accept the results 
at the conclusion of an authorized third-party test.
    SMC members are global technology companies who manufacture 
security screening equipment that is tested and certified to 
meet internationally recognized standards that are often more 
strict than those in the United States. Industry supports the 
recommendations contained in the recent Aviation Security 
Advisory Committee report titled ``Improving Checkpoints at 
U.S. Airports.'' The ASAC recognizes TSA's efforts to 
coordinate the sharing of information with international 
partners to jointly define requirements and develop new 
security screening equipment that is capable of detecting 
explosives and other new threats to aviation.
    The SMC supports the acceleration of efforts to develop 
common detection testing and certification protocols with 
international regulators and encourages TSA to accept the large 
amounts of data that are captured during testing and deployment 
at international airports to strengthen security screening both 
in the United States and abroad. This will help to improve 
security by creating common screening protocols and encouraging 
reciprocity between international partners and also to improve 
the passenger experience.
    And, finally, the SMC strongly supports the work and the 
efforts of the Innovation Task Force. Since it was formally 
unveiled in 2016, the ITF has engaged with industry 
stakeholders to identify and demonstrate next-generation 
technology solutions to improve both security and operational 
efficiency at selected airports. In order to build upon recent 
successes and to clearly establish a process for developing a 
program of record for approved technologies, Congress should 
formally authorize and fund the work of the ITF.
    Congress should direct the TSA to establish a framework and 
a formal requirements process that serves as a roadmap for 
industry engagement. At the same time, Congress should direct 
TSA to provide annual updates on the effectiveness of the ITF 
in improving the overall security equipment process.
    The Security Manufacturers Coalition appreciates the 
opportunity to share our views and our recommendations with 
your committee today. These recommendations share broad and 
unanimous support within our industry, and many are already 
endorsed by the ASAC, which represents a broad spectrum of 
aviation stakeholders. The SMC appreciates the work of this 
committee and professional staff for its diligent and inclusive 
efforts in drafting the TSA Modernization Act. We strongly 
support this legislation, and we look forward to working with 
you in the future.
    Thank you, sir.
    [The prepared statement of Ms. Pressnell follows:]

         Prepared Statement of Sissy Pressnell, Vice Chairman, 
                    Security Manufacturers Coalition
    Chairman Blunt, Ranking Member Cantwell, and Members of the 
Subcommittee, on behalf of the eight members of the Security 
Manufacturers Coalition (SMC), thank you for the opportunity to share 
our collective industry priorities and key recommendations for 
modernizing and improving aviation security.
    The SMC is the unified voice of leading security technology 
companies with manufacturing operations and offices in ten states. The 
SMC generates 7,000 direct and 20,000 indirect jobs in everything from 
research and development to engineering and advanced product 
manufacturing. The companies have certified equipment deployed around 
the world.
    The Department of Homeland Security (DHS) and the Transportation 
Security Administration (TSA) have been diligently working to make 
long-term improvements to aviation security at the checkpoint and 
beyond. The SMC and its member companies share the government's concern 
about new and evolving threats, and remain committed to delivering 
first-rate threat detection and screening equipment to improve security 
for the traveling public.
    My testimony today will focus on shared industry priorities and 
recommendations for TSA modernization that will enable TSA to remain 
prepared and stay ahead of its adversaries to deter, detect, and 
disrupt any threat to aviation while also being able to meet the 
growing demands of air travelers.
Funding to meet current future needs
    The SMC recognizes that Congress must deal with substantial funding 
constraints and demands on its limited resources in an attempt to meet 
the needs of competing stakeholders. When considering aviation 
security, the lack of adequate funding and ever-changing priorities 
impedes long-term innovation at a time when threats against the system 
continue to evolve and present potential adverse effects on 
international travel and commerce. To that end, TSA must embark on a 
focused, requirements-driven, multi-year program that will immediately 
accelerate the development, testing, and deployment of next generation 
technology as well as the initiation of system upgrades for all 
checkpoint and checked baggage technology with new software and 
detection algorithms. Making long-term technology investments takes 
planning and significant resources. In the short-term, the SMC 
recommends ending the diversion of a portion of the Passenger Security 
Fee that is now dedicated for deficit reduction to pay for checkpoint 
development and deployment of new technology enhancements. Longer term, 
we support a multi-year approach that includes a checkpoint equipment 
capital fund, similar to the checked baggage program, to provide 
consistent availability of resources for technology acquisitions.
Authorize and Fully Fund the Innovation Task Force
    The SMC strongly supports the work and the efforts of the 
Innovation Task Force (ITF). Since it was formally unveiled in 2016, 
the ITF has engaged with industry stakeholders to identify and 
demonstrate next generation technology solutions to improve both 
security and operational efficiency at selected airports. In order to 
build upon recent successes and to clearly establish a process for 
developing a program of record for approved technologies, Congress 
should formally authorize and fund the work of the ITF. Congress should 
direct the TSA to establish a framework and a formal requirements 
process that serves as a roadmap for industry engagement and to further 
encourage industry collaboration and participation. At the same time, 
Congress should direct TSA to provide annual updates on the 
effectiveness of the ITF in improving the overall security equipment 
development and acquisitions process.
Enacting Acquisition Reform and Improving the Test & Evaluation Process
    The passage of the Transportation Security Reform Act (TSARA--P.L. 
113-245) was an important legislative achievement and a key milestone 
for security technology manufacturers. For the first time, TSA was 
required to develop a five-year technology acquisition plan and share 
its contents with industry. This document provides a valuable framework 
for industry resource planning. However, industry needs more 
information and more direction from TSA to ensure that future 
manufacturing as well as research and development investment plans are 
truly aligned with technology capability gaps and actual government 
acquisition needs.
    For technology manufacturers, the path to technology acquisition is 
a long one. It takes an average of three to five years, and sometimes 
up to ten, for new technology capabilities to navigate the test and 
evaluation process before being deployed at airports. Congress must 
direct DHS and TSA to develop a plan to completely reconstitute the 
equipment test and evaluation process with a target goal of reducing 
the time-frame to no more than one year from the date of laboratory 
certification. This should start with a formal review of the test and 
evaluation process conducted to establish a new and more streamlined 
process. The SMC recommends additional resources be dedicated to hiring 
additional testing experts to manage the transition to the next 
generation of equipment. Additional efficiencies can also be realized 
by establishing a formal third party test and evaluation process, and 
requiring TSA to accept the results at the conclusion of an authorized 
third party test.
International Harmonization
    SMC members are global technology companies who manufacture 
security screening equipment that is tested and certified to meet 
internationally-recognized standards that are often more strict than 
those in the United States. Industry supports the recommendations 
contained in the recent
    Aviation Security Advisory Committee (ASAC) report titled, 
``Improving Checkpoints at U.S. Airports''. The ASAC recognizes TSA's 
efforts to coordinate the sharing of information with international 
partners to jointly define requirements and develop new security 
screening equipment that is capable of detecting explosives and other 
new threats to aviation. The SMC supports the acceleration of efforts 
to develop common detection testing and certification protocols with 
international regulators, and encourages TSA to accept the large 
amounts of data that are captured during testing and deployment at 
international airports to strengthen security screening both in the 
United States and abroad. This will help to improve security by 
creating common screening protocols and encouraging reciprocity between 
international partners to improve the passenger experience. It will 
also drive down the cost of next generation advanced technology by 
making it more affordable and available to everyone while increasing 
manufacturing certainty.
Closing
    The Security Manufacturers Coalition appreciates the opportunity to 
share our views and recommendations with the Committee today. These 
recommendations share broad and unanimous support within our industry, 
and many were also endorsed by the ASAC, which represents a broad 
spectrum of aviation stakeholders. The SMC appreciates the work of this 
Committee and professional staff for its diligent and inclusive efforts 
in drafting the TSA Modernization Act. The SMC strongly supports this 
legislation and looks forward to working with you and the TSA to 
improve the security of the traveling public.

    Senator Blunt. Thank you, Ms. Pressnell.
    Mr. White.

          STATEMENT OF MICHAEL WHITE, VICE PRESIDENT,

               GOVERNMENT AND INDUSTRY RELATIONS,

              CARGO NETWORKS SERVICES CORPORATION,

            INTERNATIONAL AIR TRANSPORT ASSOCIATION

    Mr. White. Chairman Blunt, Ranking Member Cantwell, and 
members of the Subcommittee, thank you for inviting me to 
participate in today's hearing on modernizing the TSA. My name 
is Michael White. I'm the Vice President of Government and 
Industry Relations for Cargo Network Services, a company of the 
International Air Transport Association, IATA.
    IATA's mission is to represent, lead, and serve the airline 
industry. Our members comprise some 280 airlines in over 117 
countries, carrying 83 percent of the world's passengers and 
cargo traffic by air. IATA greatly appreciates the opportunity 
to testify on the need to modernize the TSA. Every day, the 
policies of the TSA have a direct impact on the majority of the 
120 IATA members flying to, from, and within the United States 
on a regularly scheduled basis.
    The TSA is, indeed, a critical component of the security of 
the international aviation system. As with any organization, we 
do believe there are a number of areas that could be improved 
in order to enable the agency to continue its important mission 
as effectively and efficiently as possible. Given that the TSA 
has never been reauthorized in its history, we applaud the 
Subcommittee for its efforts on this bill that would bring 
about changes to the agency in a thoughtful and responsible 
way. We would like to comment on the following issues addressed 
in the Subcommittee's draft proposal.
    A Five-year Term of the TSA Administrator. We strongly 
support a 5-year term for the TSA Administrator. The agency has 
been challenged in the past when faced with disruptive 
transitions between numerous administrators.
    The TSA Organization. We believe that TSA management should 
be reflective of the global nature of commercial air 
transportation and avoid treating domestic different than 
international travel. TSA should align its domestic and 
international operations with International Civil Aviation 
Organization, ICAO, security policies and standards to promote 
global harmonization.
    Biometrics Expansion. IATA strongly supports the use of 
biometrics in improving the passenger facilitation process. We 
note with some concern that the TSA is currently pursuing a 
biometric solution using fingerprints, while CBP is testing 
facial recognition biometric capture in its entry and proposed 
exit system. We encourage the TSA and CBP to coordinate their 
efforts in this regard and utilize biometric capture technology 
that minimizes negative impacts on passenger flows.
    Third Party Canines. IATA supports the use of third party, 
TSA-approved canines for both public passenger areas and for 
air cargo. Canines have proven to be the most efficient means 
to screen passenger and cargo in a timely, cost-effective 
manner. We urge the TSA to move this program forward as 
expeditiously as possible. We recommend that the TSA consult 
with other Federal Government agencies for guidance and best 
practices.
    Public Area Best Practices. IATA shares the Subcommittee's 
support for sharing best practices for securing airport public 
areas. IATA has worked closely with airports and government 
agencies around the world to improve processes at airport 
public acceptance areas and screening queues as well as with 
general airport design. We are confident that the TSA would 
benefit from the experiences of many of these airports.
    TSA PreCheck Program. IATA supports the expansion of TSA 
PreCheck Program, as we do with similar known passenger 
programs around the world. We need to ensure that the 
significant benefits of PreCheck are not lost by a reduction in 
personnel managing those lines.
    Passenger Security Fee Diversions. IATA strongly opposes 
the diversion of aviation-related fees for non-aviation 
purposes. Congress should end these fee diversions and allow 
the funds already being collected to be used for their original 
stated purposes. We also oppose any attempt to use fees paid by 
aviation to cross-subsidize other modes of transportation. The 
policy against cross-subsidization, long established in U.S. 
air transport agreements, derives directly from principles long 
championed by the U.S. within ICAO.
    Known Shipper and Indirect Air Carrier Programs. The Known 
Shipper and Indirect Air Carrier Programs need review. We 
strongly support a review of both those programs for air cargo. 
We believe a review of these programs will enable us to 
identify ways to use technology to reduce risk and improve 
cargo processing.
    Last Point of Departure Airports and Security Directives. 
We strongly support requiring the TSA Administrator to consult 
with trade association representatives for affected air 
carriers and airports. IATA and its 120 members who serve the 
U.S. want to work closer to be partners with the TSA when it 
comes to aviation security.
    Chairman Blunt, Ranking Member Cantwell and members of the 
Subcommittee, thank you again for inviting me to participate in 
this important discussion on modernizing the TSA. IATA looks 
forward to working with you and your staff on this bill and 
further legislation in the future to enhance safety and 
security of our aviation system.
    I am happy to answer any questions you may have.
    [The prepared statement of Mr. White follows:]

  Prepared Statement of Michael White, Vice President, Government and 
 Industry Relations, Cargo Network Services Corporation, International 
                       Air Transport Association
    Chairman Blunt, Ranking Member Cantwell, and members of the 
Subcommittee on Aviation Operations, Safety, and Security, thank you 
for inviting me to participate in today's hearing on modernizing the 
Transportation Security Administration (TSA).
    My name is Michael White and I am the Vice President of Government 
and Industry Relations for Cargo Network Services Corporation, a 
company of the International Air Transport Association, or IATA.
    IATA's mission is to represent, lead and serve the airline 
industry. Our members comprise some 280 airlines in over 117 countries, 
carrying 83 percent of the world's passenger and cargo traffic by air.
    IATA greatly appreciates the opportunity to testify on the need to 
modernize the TSA. Every day, the policies of the TSA have a direct 
impact on the majority of the 120 IATA member airlines flying to, from, 
and within the United States on a regularly scheduled basis.
    The Transportation Security Administration is indeed a critical 
component to the security of the international aviation system. Since 
its inception, the agency has grown into what is today a mature 
organization that is well equipped to meet the ever-changing needs of 
the aviation security environment. However, as with any organization, 
we do believe there are a number of areas that could be improved in 
order to enable the agency to continue in its important mission as 
effectively and efficiently as possible.
    Given that the TSA has never been reauthorized in its history, we 
applaud the Subcommittee for its effort to draft the TSA Modernization 
Act to help bring about changes to the agency in a thoughtful and 
responsible way. We would like to comment on the following issues 
addressed in the Subcommittee's draft proposal:
5-Year Term for the TSA Administrator
    We strongly support a five-year term for the TSA Administrator. The 
agency has been challenged in the past when faced with disruptive 
transitions between numerous Administrators. We believe a 5-year term 
will give an Administrator the time he/she needs to promote the 
organization's mission in a consistent and coherent fashion. It is 
consistent with the term of the FAA Administrator, whose agency faces 
similar challenges on the safety side and has benefited from the 
stability that has come with a 5-year appointment.
TSA Organization
    We believe that TSA management should be reflective of the global 
nature of commercial air transportation and avoid treating domestic 
different than international travel. To that end, we believe there 
should be greater alignment between the Office of Strategic Policy and 
Industry Engagement (OSPIE), which normally addresses domestic 
security, and the Office of Global Strategy (OGS), which normally 
addresses international security matters. To the extent practical, TSA 
should align its domestic and international operations with 
International Civil Aviation Organization (ICAO) security policies and 
standards to promote global harmonization.
Biometrics Expansion
    IATA strongly supports the use of biometrics in improving the 
passenger facilitation process. We note with some concern that the TSA 
is currently pursuing a biometric solution using fingerprints while 
U.S. Customs and Border Protection (CBP) is testing facial recognition 
biometric capture in its entry and proposed exit system. We encourage 
the TSA and CBP to coordinate their efforts in this regard and utilize 
biometric capture technology that minimizes negative impacts on 
passenger flows.
Third Party Canines
    IATA supports the use of third party TSA-approved canines for both 
public passenger areas and for air cargo. Canines have proven to be the 
most efficient means to screen passenger and cargo in a timely and 
cost-effective manner. We urge the TSA to move this program forward as 
expeditiously as possible. We recommend that the TSA consult with other 
Federal Government agencies (State, DOD, CBP) for guidance and best 
practices.
Public Area Best Practices
    IATA shares the Subcommittee's support for sharing best practices 
for securing airport public areas. IATA has worked closely with 
airports and government agencies around the world to improve processes 
at airport public acceptance areas and screening queues as well as with 
general airport design. We are confident the TSA would benefit from the 
experiences of many of these foreign airports.
TSA Pre3 Program
    IATA supports the expansion of the TSA Pre3 program as we do with 
similar known passenger programs around the world. We need to ensure 
that the significant benefits of TSA Pre3 are not lost by a reduction 
in personnel managing those lanes.
Passenger Security Fee Diversions
    IATA strongly opposes the diversion of aviation-related fees for 
non-aviation purposes. In 2013, Congress increased the TSA Passenger 
Security Fee from $5.00 per segment to $5.60 per one-way trip and used 
the surplus revenue as a pay-for. This is projected to raise $15.79 
billion through Fiscal Year 2025 under the guise of aviation security 
and diverted to the general fund. Congress should end these fee 
diversions and allow the funds already being collected to be used for 
their original stated purpose. We also oppose any attempt to use fees 
paid by aviation to cross-subsidize other modes of transportation.
    In addition to being bad public policy, these actions have the 
potential to violate existing international agreements to which the 
U.S. is a party. The U.S. Government has entered into bilateral 
aviation agreements with over 100 countries, all of which include a 
clear prohibition against governments imposing user fees that exceed 
the costs of the services provided to commercial aviation. Further, the 
policy against cross-subsidization--long established in U.S. air 
transport agreements--derives directly from principles long championed 
by the U.S. within ICAO.
Known Shipper and Indirect Carrier Programs Review
    We strongly support a review of the Known Shipper and Indirect Air 
Carrier programs. These programs were developed in the 1990s and 
enhanced after 9/11. Since that time, we have much better data and 
technology to secure and track cargo shipments. CBP has used the 
Automated Commercial Environment (ACE) system to collect trade data 
both in and out of the United States for all modes of transportation. 
Technology has also moved to a less paper-intensive environment for 
most government agencies. The data collected offers the opportunity for 
a more effective and efficient risk-based screening process. We are 
hopeful this review will enable us to identify ways to use the 
technology to reduce risk and improve cargo processing.
Last Point of Departure Airports; Security Directives
    We strongly support requiring that the Administrator consult with 
trade association representatives for affected air carriers and 
airports. To that end, it is important to note that the majority of 
passengers and air cargo arriving in the United States is flown on non-
U.S. carriers. The TSA often consults with U.S. carriers in advance of 
the issuance of Emergency Amendments (EAs) and Security Directives 
(SD), which enables those carriers to provide meaningful input into 
that discussion and prepare their operations in advance to support 
TSA's security needs. Unfortunately, these advance consultations have 
not taken place on a regular basis with non-U.S. carriers, either 
directly or through IATA. This has led to situations where the TSA's 
mission has been undermined because of a lack of understanding for or 
appreciation of the various operational, governmental, or fiscal 
challenges facing carriers seeking to meet new requirements. While we 
recognize that appropriate security clearances are needed for these 
types of discussions, accommodations must be made in order to ensure 
effective and timely implementation of these critical security 
directives.
    Chairman Blunt, Ranking Member Cantwell, and members of the 
Subcommittee on Aviation Operations, Safety, and Security, thank you 
again for inviting me to participate in this important discussion on 
modernizing the TSA. IATA looks forward to working with you and your 
staff as you craft legislation to enhance the safety and security of 
our Nation's aviation system.

    Senator Blunt. Thank you, Mr. White.
    For the Members who arrived after we started, we'll try to 
keep the hearing moving during the vote that's coming up, and 
I'll stay for a little while and do that. I may get to 
questions then.
    So we'll start with Senator Cantwell and then we'll go to 
Senator Inhofe.
    Senator Cantwell. Thank you, Mr. Chairman. I appreciate the 
panelists being pretty endorsing--I guess is the right way to 
say it--of the canine program included in the legislation that 
was introduced. We're big believers in what TSA and Homeland 
and everybody else has told us about the efficiency of these 
dogs, both in detecting explosives as well as helping to move 
fast-paced lines that are challenged in very congested airports 
like I mentioned at Sea-Tac.
    So, Mr. Alterman, you also believe that they have great 
opportunity to help us in the cargo area. You mentioned the 
supply chain. So what is it that you think will best help us in 
the canine units and getting more canine units in our airports?
    Mr. Alterman. Well, I think the legislation helps, because 
it puts a shining light on the need for it. We've talked a lot 
about technology on this panel, and that's absolutely 
necessary. Dogs are sort of the low-tech solution, but a very 
important one.
    In the air cargo area, our businesses are expanding, our 
requirements for screening freight are expanding, and at least 
at the present moment, technology doesn't do the job. We don't 
have the right technology. We absolutely need the canines to do 
that, and in order to do that, we need a program that TSA is 
currently working on that actually substantially mirrors the 
language in this legislation.
    We all wish it would move faster. The bureaucracy sometimes 
moves a little too slowly for all of us. So we're looking 
forward to that. I was hoping that by the time of this hearing, 
I could tell you that they're in the process of implementing 
that canine program. I expected to see something about 3 weeks 
ago. We haven't seen it yet. You know, it's always tomorrow 
that we're going to be doing this. So I am looking forward to 
the program that TSA is developing. We just hope that there 
aren't any glitches or deviations from what the proposed 
legislation has in it.
    Senator Cantwell. Any ideas about why that is moving 
slowly? Do you know?
    Mr. Alterman. It's a bureaucracy. Well, I actually do, and 
at the risk of--well, let me say this first. Probably, the way 
TSA works internally is none of my damned business. But that's 
one of the problems. The problem is that, as in any 
bureaucracy, there are various pieces of the agency with 
various portions of this project, and they don't always get 
along with each other that well. So I think that one of the 
reasons that we do not yet have a canine program is the lack of 
coordination between the various parts of TSA, and nobody seems 
to be totally in charge that can bang heads together and 
actually get it done, and I think that's simply a bureaucratic 
problem.
    Senator Cantwell. Well, thank you for illuminating it this 
morning, and I find here that illuminating some of these things 
does help us. The efficacy of the program is very important, as 
you know, in making sure the dogs are trained and skilled for 
this kind of detection, and making sure they meet that standard 
is very important. But, obviously, probably everybody on this 
committee has seen some pretty amazing things done by these 
canine units--I mean just amazing things.
    So on the cargo side, you're talking about a large scale 
deployment or a targeted first?
    Mr. Alterman. Well, the cargo industry is very diverse, and 
so making one comment on that is very difficult. I think 
different members of our industry would use the dogs 
differently. I know that at least one company wants to use them 
fairly extensively, and others just as a supplement to other 
things.
    I think the important thing is not to limit the program 
initially, but rather let the marketplace take its form, and 
let the people who want to use the dogs go and rent the dogs 
from qualified people who have been trained by people who know 
how to train them and have been certified by people that have 
been certified by TSA, and then just let the marketplace take 
care of it. I don't think one-size-fits-all in this program 
works.
    Senator Cantwell. Well, that is why we want the flexibility 
in the program, particularly as it relates to passenger 
screening at our airports, and we're so glad that you guys have 
all supported that concept and we're going to get to move 
forward on that. Our airports are showing that these dogs--and 
I just go back to the horrible situations we've seen in Europe. 
People tell us that the security--that they would have detected 
somebody the minute they walked into the airport terminal. To 
me, that is the kind of deterrence that we need, as well as the 
expediting of the processing at our really very congested 
airports. So thank you very much.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    I have to say, Mr. Alterman, that's one of the better 
descriptions that I've heard of bureaucratic problems. I've 
written it down.
    [Laughter.]
    Senator Inhofe. You know, I'm new to this committee, but 
we've already had--you've been here as a witness before, and it 
has been fascinating to me as we watch the successes and some 
things that are working and aren't working. But it seems like 
every time someone testifies, they come right back to the issue 
of the canines, you know, the dogs are there, and I fail to see 
what the problem is.
    You know, first of all, you say that anyone who is training 
these dogs has to be certified by the TSA. Is that correct?
    Mr. Alterman. The way the program is going to work--and I 
believe the language in the legislation--TSA would set the 
standards for suppliers of the dogs to use. They would be 
trained----
    Senator Inhofe. You say would. Have they already done this?
    Mr. Alterman. They are in the process of doing it. They've 
already set the standards for their own dogs--the TSA dogs that 
are currently operating. I haven't seen standards for the 
third-party canine program for screening air cargo. But I can't 
imagine those standards are going to be very different from 
what they've already done. So my guess is that part of the 
process has been done, but I haven't seen it, finally.
    Senator Inhofe. I just don't see the problem with this, 
because----
    Mr. Alterman. Well, neither do we, sir.
    Senator Inhofe. Well, what I'm saying is I've been the 
ranking member on the Senate Armed Services Committee. We have 
the same problem right there in getting the adequate number of 
dogs. The talent is there. People train--there are a number of 
people who train them. But if they have to be certified by the 
TSA, and they haven't yet done it, the question would be--and 
you're not the TSA so I can't ask you, but I will ask the TSA--
why haven't they already done it?
    And then guidelines, for example. What role do higher 
education institutions play in this? Are they involved in this?
    Mr. Alterman. They certainly can be. They're not 
specifically involved in this. But, certainly, the educational 
institutions--and there are several of them around the country 
that are involved very intimately in the canine program.
    Senator Inhofe. One of those is Oklahoma State University, 
and yet when I went over to check, they don't actually get 
involved in training the dogs. They're think tanks. They're 
putting together programs--what do we want, what do--it seems 
to me that we're beyond that point. So I think this Committee 
could be helpful in trying to actually go out there and get 
more dogs. I mean, there are lots of other issues here, but 
that's one that consistently has come up.
    So are you familiar with some of the programs like Oklahoma 
State University?
    Mr. Alterman. I'm familiar with some programs. Auburn has 
one. Oklahoma State has one. There are several other 
universities. I'm not intimately familiar with exactly what 
they're doing. But they have a role in this. They clearly have 
a role in this, and any help that they can be to the TSA, I'm 
sure TSA would be glad to take.
    Senator Inhofe. OK. Well, I just want to get to the point 
where we actually get more dogs.
    Now, all of you have talked about the 5-year term, which I 
think would be consistent with the FAA and their five-year 
term. Is this something that you all agree on? We were here and 
we did go ahead and approve a Director, and I think we went 
without a Director for about 8 months. So that is a hardship, 
so we will pursue that.
    I didn't realize my time has expired.
    Thank you.
    Senator Blunt. I don't think your time had expired. You 
have a minute.
    Senator Inhofe. Oh, well, on my little clock, it said--OK. 
Well, that's----
    [Laughter.]
    Senator Inhofe. Maybe that's a message just to me.
    Senator Blunt. Maybe in the interest of time, we'll just 
move on.
    Senator Inhofe. No, let me ask one final question.
    Mr. White, you mentioned the fee diversion that's taking 
place. Tell us about these fee diversions. Are they with the 
PFCs or what?
    Mr. White. Well, the security charges don't always remain 
at--for the purpose they were designed for. Some of the funding 
does go into other agencies outside.
    Senator Inhofe. Can you give some specific examples?
    Mr. White. There are some that are used, for instance, for 
ocean and the purpose of screening passengers on the ocean 
side. There's other things that are being used to--for just in 
general funds that are not for security purposes. I don't have 
specifics, but we can give you a list of those.
    Senator Inhofe. OK, for the record. I'd be interested in 
knowing that.
    Mr. White. We'll be glad to get those for you.
    [The information referred to follows:]

                                Cargo Network Services Corp
                                        Miami, FL, November 8, 2017

Hon. James M. Inhofe,
Russell Senate Office Building,
Washington, DC.

Re: Subcommittee on Aviation Operations, Safety, and Security Hearing--
            TSA Modernization: Improvements to Aviation Security; 
            September 28, 2017

Dear Senator Inhofe:

    This letter is in response to your request during the September 28, 
2017 subcommittee hearing for specific examples of where Congress has 
increased aviation-related user fees to pay for items unrelated to 
aviation. Below are three of the most recent examples:

  <bullet> The Bipartisan Budget Act of 2013 (P.L. 113-67) increased 
        the TSA Passenger Security Fee from $5.00 per segment to $5.60 
        per one-way trip and directed that a portion of those fees, 
        totaling $12.63 billion, in Fiscal Years 2014 through 2023 be 
        deposited into the general fund.

  <bullet> The Surface Transportation and Veterans Health Care Choice 
        Improvement Act of 2015 (P.L. 114-41) extended the 
        authorization to divert a portion of the TSA Passenger Security 
        Fee increase through Fiscal Year 2025, adding another $3.16 
        billion to the general fund.

  <bullet> The Fixing America's Surface Transportation (FAST) Act (P.L. 
        114-94) indexed customs user fees beginning in Fiscal Year 2015 
        to increases in the Consumer Price Index and used the estimated 
        $5.7 billion revenue increase as a pay-for. Of this amount, 
        $932 million is estimated to come from aviation.

    While CNS and IATA appreciate the funding challenges currently 
facing the Congress, we strongly believe that any aviation-related user 
fees should be used for their intended purpose and that airlines and 
their customers should not be asked to fund other, unrelated government 
programs. We appreciate your support and look forward to working with 
you and your office on this important issue in the future.
            Sincerely,
                                          Michael R. White,
                 Vice President, Government and Industry Relations.

cc: Members of the U.S. Senate Committee on Commerce, Science, and 
Transportation--Subcommittee on Aviation Operations, Safety, and 
Security

    Senator Inhofe. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you.
    Senator Klobuchar and then Senator Hassan.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chair. We had a 
very good experience in the Minneapolis-St. Paul Airport, which 
is a major hub, by adding dogs. We had severe wait lines, and 
then, at the time, TSA Administrator Neffenger came in and 
brought more dog teams, including one team of dogs that, 
unfortunately for them, got relocated from Maui to the Twin 
Cities.
    [Laughter.]
    Senator Klobuchar. But it made a huge benefit. So I would 
just add what my colleagues, Senator Cantwell and Senator 
Inhofe, have said about the value, not just for security, which 
is key and the most important thing, but also for efficiency at 
a very, very busy airport.
    I thought I would ask about the TSA PreCheck program. It 
increases efficiency and security. Mr. Weiler, from your 
perspective from Missouri, what strategies have been effective 
in promoting the program, and how are we assured, I guess, Mr. 
White, that those benefits don't get taken away by longer lines 
in the PreCheck? I've started to see longer lines in that like 
the regular one. So let's talk a little bit about that.
    Mr. Weiler. Sure. Thank you, Senator. We have seen an 
increase in the use of it, and I think it's impacted our 
general line, which is good. I think the more we can do to 
highlight the program--and I really like how the bill sets 
specific enrollment targets out there to increase that. But, as 
I said, it's still somewhat clunky. You can get online. You can 
complete your data to submit it. But when you have to do that 
follow-up interview--at least, at my airport, we only have one 
enrollment center, and it's nowhere near the airport. It's 
functioning, but it takes months to do that.
    So I think bringing the devices that we all now have, 
having that technology and bringing those things, and opening 
up more to more vendors to increase it would be very good.
    Senator Klobuchar. Do you think a clear definition of wait 
time would be helpful?
    Mr. Weiler. We do, we do, as well.
    Senator Klobuchar. Mr. White.
    Mr. White. On the issue of the lanes themselves, we're 
seeing at some airports--and you've probably seen it here at 
the Washington airports--where the PreCheck lines are getting 
longer and longer. I think part of the issue you have to look 
at is back to the data perspective as to how many passengers 
are going to go through every day. Can we look at some of the 
data that determines the actual movement of where the officers 
and inspectors should be in a day? Are you going to have more 
PreCheck passengers or not? Can you take your manpower flows 
for those days and--so I think there's a lot of capability 
based off the airline information and the airports' information 
on helping rearrange where some of those lanes are.
    The other thing, though, that we want--we do want more 
people in PreCheck. It does reduce the time, and it does help 
put the flow of passengers faster through the terminal. But 
then you have the whole issue of the design of the airports and 
such.
    Senator Klobuchar. How about best practices for security at 
airport public areas? We've seen in other countries, of course, 
major issues there.
    Mr. White. IATA has worked with other airports around the 
world, because our security groups do work directly with 
airports in many other parts of the world. So we look at time 
studies. We do actual views of the flow of the passengers as 
related to the security inside the terminal. So is that, you 
know, the public area and some of the things like we found in 
Fort Lauderdale?
    Those are difficult challenges, in baggage claim areas and 
others. We have to re-look at that, but I think that's where we 
can take some of the studies that we've done on simplifying the 
business product on the passenger side that we work with the 
airlines on to see how we could put that into a security realm 
better.
    Senator Klobuchar. OK. Thanks.
    Mr. Alterman, you called for TSA to have a more centralized 
focus on air cargo supply chain. How should TSA change in order 
to focus on air cargo security?
    Mr. Alterman. That's a tough one. But let me preface my 
answer by saying once upon a time, TSA had an air cargo 
division with scores of people. I think the numbers were about 
40 people, and that whole division focused on air cargo 
security, and it cut across lines. About 5 years ago--I believe 
it was 2012--that whole air cargo division was disbanded, and 
the people that were working on air cargo were spread 
throughout the agency.
    Since then, there hasn't been within the agency a 
centralized focus on air cargo. So what we have is the OSO, the 
operation security people, making some policy on it, and other 
people making policy on other areas.
    Senator Klobuchar. Could I just ask you one question? Maybe 
you could finish that one in writing, since I'm out of time.
    Mr. Alterman. Sure.
    Senator Klobuchar. Would you like a 5-year term for the TSA 
Administrator and Deputy Administrator for some more 
continuity?
    Mr. Alterman. Absolutely.
    Senator Klobuchar. Excellent answer. Thank you.
    Senator Blunt. Thank you, Senator.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    And thank you to the witnesses for being here today.
    Mr. Weiler, I wanted to thank you for your testimony and 
follow up a little bit on the realities of managing a small to 
medium size airport. As a manager of a small airport, I would 
expect--and your testimony certainly suggested--that you 
struggle with some of the same security and funding challenges 
that other such airports do, like the one in my City of 
Manchester, New Hampshire.
    As you know, the President's budget request eliminates the 
TSA grants to reimburse state and local law enforcement for 
their patrols of airports and the surrounding areas, and it 
also dramatically cuts VIPR teams. When the budget came out 
earlier this year, I asked then Secretary of DHS Kelly during a 
Senate Homeland Security Committee hearing about why the 
administration cut these programs, even though our aviation 
system is facing increased threats?
    Secretary Kelly's response to my question was that from 
DHS' perspective, the state and local law enforcement would 
have to shoulder more of the burden for securing the airport 
and its surrounding areas, given that airports generate so much 
revenue for states and municipalities. I reminded him at the 
time that at least in my state of New Hampshire, budgets are 
pretty slim and local property taxpayers aren't eager to 
increase their property tax rates anymore.
    So I understand from your testimony that your airport runs 
on an enterprise fund and has its own 10 uniformed police 
officers patrolling the airport. How much does maintaining that 
force cost? And, additionally, does that police force--would 
that be able to stay up and running if your local enforcement 
grants are cut?
    Mr. Weiler. Senator, it's a constant challenge. We cover a 
large geographic area. Our airport is 3,300 acres. We do rely 
heavily, as do the other 300 airports, on this law enforcement 
officer program. Airports may be seen as a cash cow, but, 
honestly, it's probably more in terms of the economic impact 
that they generate. They don't really generate money for the 
local entity.
    So the bill does call for increased security in public 
areas, baggage, around ticket checkpoints, things like that, 
which we all agree are good. But at least the draft bill from 
this committee also increases the funding for the LEO to 
provide those resources, at especially small airports. There's 
only so many places I can go, and the airlines that operate 
there that our communities rely heavily on, in a lot of cases, 
I have no choice but to pass those fees along to them, and to 
them it may actually be the point of losing a route or gaining 
an additional frequency. So it's a focus on us, a constant 
challenge to maintain that balance. We all want good security, 
but there's only so much money in the bank for us.
    Senator Hassan. Well, thank you for that, and then a 
question to both you and Mr. White. In the past, this 
Subcommittee has focused on insider threats at airports and 
increasing the capacity of TSA to screen airport workers. 
However, one potentially overlooked area of insider threat 
vetting is the security and authenticity of pilots' licenses.
    According to a recent Boston Globe investigation, the 
Federal Aviation Administration has issued pilots' licenses and 
credentials to applicants without having fully vetted the pilot 
first. And the investigation found that at least five pilots 
with active licenses matched watch list records for their 
connection to terrorism or international crime. So, obviously, 
this is a really startling report and discovery. The lapse 
appears to stem from insufficient communication between FAA and 
TSA, as well as the FAA's inability to validate the 
authenticity of personal information on pilots' licenses at the 
time of the application.
    So to both of you, Mr. White and Mr. Weiler, your 
constituencies rely heavily on the trustworthiness and 
reliability of pilots, obviously. Would you support holding 
pilots, at a minimum, to the same security standards as we do 
airport workers?
    Mr. White, why don't you start?
    Mr. White. I think it's something that would be looked at. 
But from the commercial airlines license, if we're looking at 
commercial pilots, I think the scrutiny goes beyond just what 
the governments themselves do, as to what the companies and 
airlines also are looking at. From an international 
perspective, we're looking at, for multiple purposes of 
securing them, the individuals that are flying those aircraft, 
with local governments where they're based and with the U.S. 
Government.
    So there's a multiple look at that. I'm not sure--I'm not 
aware of that study, but it's something I can go back and find 
more information on.
    Senator Hassan. We'll be happy to get you a copy of the 
report. It's relatively recent. It was very concerning to me. 
That's why I'm bringing it up.
    Mr. Weiler.
    Mr. Weiler. I can't speak to that specific issue as well, 
but I do know known threat and possibly even 100 percent 
screening has been used effectively at some airports. I will 
tell you it does have airports our size very concerned. Again, 
it's a resource issue. We have focused working with TSA on more 
of a random approach, limiting the number of access points for 
employees, doing random screening, and leaving that expectation 
with any airport employee that they could be screened at any 
time. We focused on that, and we think it's a good balance.
    Senator Hassan. Well, I thank you, and I see that I'm out 
of time. I will add my voice to the chorus concerning VIPR 
teams and dogs and enhancing TSA PreCheck.
    Thank you.
    Senator Blunt. Thank you, Senator.
    One good reason to have a hearing is it forces you to come 
up with a bill, and so I'm pleased to have your reaction to the 
bill we filed last night. I do think it includes most of the 
concerns that some of you have previously shared both with the 
Committee generally and in testimony.
    One new thing we put in here, Mr. Weiler, was the ability 
to look at the exit lane with a pilot project on a different 
kind of security. Now, your airport, the one I use a lot--
you're approaching a million passengers a year. Is that right?
    Mr. Weiler. That is correct.
    Senator Blunt. And what would be your comfort with the 
security and the economics of the idea of not having a person 
at the exit lane all the time?
    Mr. Weiler. Senator, for us, it's a win-win. There is good 
technology on the market to be able to automate these lanes. 
They're used at many airports very safely and securely. For our 
airport, since we both share the staffing with TSA and with the 
airport, they would actually save more money than we do because 
they staff their lane longer. But yet there is no program for 
them to share that cost with us. So I think the idea of a cost-
share program is a win-win. Ultimately, it should save both the 
airport and TSA funds down the road. So we just see this as a 
win-win.
    Senator Blunt. And you're comfortable with the security 
element of that?
    Mr. Weiler. I am, Senator.
    Senator Blunt. There are exit lane abilities that no one 
would be able to get in the other way without immediately 
triggering----
    Mr. Weiler. The technology that is there, and if you've 
seen them--they are installed at more and more airports, 
especially the larger ones that bear that cost. It's very 
secure. You are not allowed to go back. It is monitored. Alarms 
will sound. Again, this is proven technology. I'm not saying it 
can't get better, but I do think the security is there.
    Senator Blunt. One of the things the law allows is the 
private contractor coming in and providing TSA security. The 
Kansas City Airport is one of the handful of airports in the 
country that does that. At one time, your airport considered 
it. Is that still something you occasionally look at, or why 
have you moved back to the TSA in a more traditional way?
    Mr. Weiler. You're right, Senator. It has been used at many 
airports effectively, and we have looked at it in the past. We 
are currently not looking at implementing private screening. We 
have a good partnership with TSA. However, the airport would 
very much like to maintain this ability, and I know other 
airports would as well down the road, should that be an option 
based on local conditions we could still apply to the 
partnership program.
    Senator Blunt. Let me ask a question of everybody here as I 
finish my question time. If you could immediately change one 
thing about the current approach to aviation security, what 
would that one change be?
    Mr. White, we're going to start with you and come back this 
way.
    Mr. Weiler. I think this bill is a major step in the right 
direction.
    Senator Blunt. I'm starting with Mr. White.
    Mr. Weiler. Oh, I'm sorry. I thought----
    Mr. White. I think if you had one thing to do, it's having 
to develop a partnership that's truly open with the security 
expertise of the people in aviation and that of the government. 
That's the biggest thing we're lacking, because we don't have 
that real true partnership, particularly with our foreign 
carriers, which, for us, represents a very large chunk of the 
transport that's coming into the U.S.
    Without that, we can't work and share the knowledge that--
there's a real lack of sharing of knowledge between the 
individuals within the aviation commercial industry and the 
government. It's very one-sided, and if we can get away from 
that, then we can really start making the change.
    Senator Blunt. And in your other testimony, you said you'd 
like to see much more of a standard that was consistent with 
both domestic and international?
    Mr. White. Exactly, because the TSA right now seems to be 
divided in a domestic mode and an international mode. It's 
aviation. It's not one or the other.
    Senator Blunt. All right. I don't want to run out of time 
here.
    Ms. Pressnell, one thing you would change if you could. 
It's OK if it's in this bill, but something we're not doing 
now.
    Ms. Pressnell. Well, the main concern that we have, 
obviously, is the ability to get technology into the field 
faster. The U.S. deserves the best technology it can have at 
any given time, and we believe that the process that currently 
exists is one that actually slows down the process and actually 
puts us behind some of our foreign counterparts who deploy 
technology that's somewhat more advanced.
    Senator Blunt. Mr. Alterman?
    Mr. Alterman. To follow up on what Mr. White said, security 
always works better when the government and industry are 
working together. I think one of the big things we need to 
change and improve upon is the sharing of intelligence 
information. We've discovered, sometimes the hard way, that if 
we had better intelligence, we could stop things. All the rules 
and security programs are fine, but we really need to work 
together to share intelligence so that we can mitigate the 
threats.
    Senator Blunt. And by that, you're principally meaning for 
them to share more of the threats that are out there with those 
of you who are doing the shipping and the cargo?
    Mr. Alterman. Yes. TSA, frankly, can't share information it 
doesn't have. It goes both ways. There needs to be better 
intelligence sharing for TSA among government agencies, which 
don't seem to share very well----
    Senator Blunt. Got it.
    Mr. Alterman.--and then passing it on to the industry, yes.
    Senator Blunt. Mr. Weiler, your one thing?
    Mr. Weiler. Airports want to be a part of the table and be 
there and collaborate, but we do not have unlimited resources.
    Senator Blunt. Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Mr. Chairman, I'd happily defer to my more 
senior colleague.
    Senator Blunt. Everybody here has asked questions. We're 
down to you.
    Senator Booker. OK. Would you mark my level of deference 
for the record, please?
    [Laughter.]
    Senator Blunt. There'll be a moment when you may need that.
    Senator Booker. Yes, sir.
    I'm very grateful for you all being here, and it's often 
that we are reactive to crises as opposed to proactive, and 
then everyone wants to do sort of a post mortem about what 
happened. I often worry that when it comes to our security 
issues at airports, we're often chasing after the last breach 
and not really trying to see what's happening in the future 
ones. That's why I found your comment very interesting about 
watching other nations implement things a lot quicker than we 
are doing.
    So I'd like to just maybe--maybe I can start with you, Mr. 
White. You know, I see things through the Newark lens. I live a 
few miles from the airport. It was amazing to me traveling 
around Europe, seeing the automated screening process, which is 
actually quicker, and it seems to be more effective. I'm 
wondering if you have any feedback regarding sort of those new 
processes or the automatic screeners and the mechanization. Is 
that something that you see as productive in terms of not just 
speed, but also when it comes to the quality of the screening 
that we're doing?
    Mr. White. I think you have to take a look at the whole 
process. If you take a look at the European programs, some of 
the things, for instance, approval of screeners, are different 
than the U.S. Some are more stringent. That standard, from our 
perspective--we work closely with the government on those sorts 
of things, and we want to share that kind of information. But 
the TSA has a mindset of what they want, because most of the 
inspectors are TSA employees. In most governments around the 
world, it's not so. But the oversight is there, so the security 
component is still there. So there are efficiencies that we 
could be gaining, learning from our counterparts.
    The PED situation, with carrying the personal electronic 
devices, for us on the passenger side was quite an issue, 
because the foreign governments had programs that we thought 
were very effective, but the TSA did not. So there needed to be 
better discussion between governments on how some of those 
things were better--there's technology that was used by other 
governments that may be considered, because it had been 
implemented faster and quicker, as Ms. Pressnell was saying.
    So it is a whole--just of bringing people together, and 
it's very siloed in the TSA, and I think that's what we're kind 
of all saying, that the TSA is so siloed internally and 
externally, and that we need to bring some of this expertise in 
with them.
    Senator Booker. I appreciate that, and that goes to the 
point you were making, Mr. Alterman, which I found interesting. 
Maybe I could just make the comparison of traveling to Israel 
versus here. It seems that they have, first of all, a far more 
efficient system, it seems, in terms of the speed with which 
people can go through. But it seems like they're using a 
tremendous amount of background checks as well as intelligence 
sharing to look at plane manifests.
    Is this something that, really, we should be looking at? 
Clearly, that's a nation that faces terrorist threats at our 
level or worse.
    Mr. Alterman. On the surface, maybe. The problem is that 
the Israeli aviation system is so much smaller and limited than 
the United States system. My concern is if you impose the 
Israeli system on the United States, no one would ever move 
anywhere, just because of the magnitude of the people that 
move. But, certainly, what they're doing might be able to be 
adapted to the U.S. system, and I, frankly, don't know whether 
that's being done now or not. But we always need to be looking 
for better ways of doing things.
    Terrorists are not dumb, and, you know, the comment that we 
always seem to be looking at and trying to solve yesterday's 
problems is one of the major concerns and one of the major 
challenges. I was very happy that in the final draft of the 
bill, there was a reference to someone looking forward and 
doing forward-looking things, and I think the agency needs to 
do that.
    Senator Booker. Well, I only have a few seconds left. So I 
just really, very rapidly--when I--you know, I know a lot of 
the folks at Newark Airport, and a lot of the TSA agents I know 
on personal levels. And when I ask them, ``What else do you 
need? What's happening?'' the common complaint that I get is 
that there's not enough personnel, that they need more people. 
Just really quickly, is that a yes or a no? Do you agree that 
we should--are we staffed the way we need to be at airports 
across the country, or do we need to be focusing on more 
resources for staffing?
    Mr. White. I think you do have issues with personnel at 
different airports, but that varies by airport. But there's 
technology that may be in use that we can improve on, because 
if you look at the canine situation where we brought canines to 
clear passengers the summer before last with all the backlogs, 
that was a way to use something that was out there as a tool. 
But you have to balance it.
    Senator Booker. And, Mr. Chairman, right before I pass off, 
I just want to say, first of all, I'm so grateful for this 
hearing. It's so important. I've been saying, though, for a 
long time that there's so much focus on our airports, 
rightfully so, but part of them--part of the obligation for TSA 
was to come back with a plan also for our rail system. You're 
seeing so many attacks now on rail systems in the United 
States. We have such a small, paltry percentage of our TSA 
assets protecting our rails. I just want to say I know this 
hearing--it's the topic of it, but I have a growing level of 
frustration that we don't have a plan to protect our rails in 
the United States.
    Thank you.
    Senator Blunt. Thank you, Senator Booker.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Obviously, this began with Mohamed Atta and the other nine 
at Logan Airport on September 11, 2001, and we continue to try 
to make sure that we do our best to protect the American 
public. Our nation's transportation security officers are 
tasked with the important mission of detecting and forestalling 
threats to passengers, crew, and aircraft.
    Regrettably, airline fees may be making this job far more 
difficult. In May, Secretary John Kelly stated that passengers 
trying to avoid exorbitant checked bag fees, up to $120 for two 
bags round trip, are cramming their belongings into smaller 
carry-on bags. These carry-ons have become so dense that 
screeners may be having difficulty identifying dangerous items.
    For all of the witnesses, do you agree with Secretary Kelly 
that TSA screeners may have more difficulty detecting dangerous 
items in densely packed carry-on bags?
    Mr. White. We haven't, from our side, seen anything that's 
been initiated. The same technology that's basically used for 
the carry-on bags is the same technology being used for the 
checked bags.
    Senator Markey. So you don't agree with Secretary Kelly.
    Mr. White. Not necessarily.
    Senator Markey. Ms. Pressnell?
    Ms. Pressnell. I would disagree as well. The technology is 
certainly advanced in terms of being able to detect threats 
down to the most specific item. So I would disagree as well.
    Senator Markey. You would disagree.
    Ms. Pressnell. I would disagree with the Secretary that 
it's causing problems.
    Senator Markey. Mr. Alterman?
    Mr. Alterman. I'm going to do something lawyers should 
never do. I don't know.
    Senator Markey. OK. That's great.
    Mr. Weiler?
    Mr. Weiler. I'm not aware, specifically, of direct TSA from 
that. However, airports certainly do hear a lot from customers 
about excessive baggage fees.
    Senator Markey. OK. Well, in May, I wrote a letter with 
Senator Blumenthal asking Secretary Kelly about this issue. 
What we found was very troubling, in fact, very troubling. 
According to TSA, bag fees do incentivize passengers to carry 
on luggage, and the screening technologies at TSA screen 
checkpoints are less sophisticated and advanced as those used 
for checked baggage. I think that this important issue deserves 
more study and evaluation, and we're going to be pursuing that 
in the markup as we move forward on this legislation.
    In the confines of the airline cabin, even a small knife 
can contribute to devastating consequences. That's essentially 
what happened on 9/11 at Logan Airport in Newark and here in 
the District of Columbia, which is why I introduced a bill that 
forbids any changes to the prohibited items that would permit 
passengers to carry small knives through screening checkpoints, 
and I'm pleased to see a similar provision in the TSA 
Modernization Act.
    For all of the witnesses, do you agree that we should 
continue to ban knives on planes?
    Mr. Weiler?
    Mr. Weiler. Yes.
    Senator Markey. Mr. Alterman?
    Mr. Alterman. Yes.
    Ms. Pressnell. Yes.
    Mr. White. Yes.
    Senator Markey. Yes, great. So that's all very helpful, and 
I'm working with Senator Murkowski to ensure that this remains 
a bipartisan issue as we move forward. I know that you have to 
make a vote over on the----
    Senator Cantwell [presiding]. I voted.
    Senator Markey. Oh, you've already voted, and I have 
already voted. So the Democrats are in charge over here.
    [Laughter.]
    Senator Cantwell. Mr. Blunt specifically asked that we not 
do a lot of mischief while he was gone.
    Senator Markey. No, No. Just a little humor reflecting the 
bipartisanship, actually, with which the Senate is able to 
operate, especially on issues that relate to homeland security. 
That has been one area where we've been able to stay very 
closely partnered, and I know that because of what happened on 
9/11 and then what happened with the Tsarnaev brothers, who 
were also in my congressional district, and what they did on 
Patriot's Day.
    So all of that kind of informs what I try to do, and we've 
made a lot of progress over some opposition over time. But I 
think we made great progress, you know, back in 2002, 2003, 
2004, 2005. The cargo industry did oppose the screening of 
cargo going out to passenger planes in the same way that the 
bags which passengers were bringing onto the plane.
    So it took the 2007 law to be able to upgrade that so that 
there is nothing that goes onto a passenger plane that has 
items on it that are not screened fully, and the same thing was 
true for cargo coming in from overseas, so that the screening 
was made for that. But that took the 2007 law, and that was 5 
years, 6 years after the 9/11 incident. So we've made a lot of 
progress, and I just want to make sure that we absolutely are 
confident that we can detect any item that could cause a 
serious problem.
    We thank all of our witnesses for being here today, and I 
thank the gentlelady from Washington.
    Senator Cantwell. Thank you, Senator Markey.
    Mr. Weiler, I would like to ask about the exit lane 
program. We know that it has been a success at some of the 
larger airports. What is your experience on moving more 
deployment of this to other regional and small airports?
    Mr. Weiler. I think that's the nice thing about the pilot 
program, Senator. It gives us the opportunity to explore it 
more, analyze the technology, make sure it works at the smaller 
airport environments. And for us, again, it focuses on saving 
money, but making sure we do it in a very secure environment. 
So we think the pilot program, as I mentioned in my testimony, 
is a major step forward. I don't know if that answers your 
question.
    Senator Cantwell. You know, the exit lane doors that are 
used at airports to, I think, enhance security, and my guess is 
it helps some of these smaller airports on cost and 
implementation of security measures.
    Mr. Weiler. Yes, and by automating those, we won't have to 
staff them, so that will definitely be a cost saving for us. 
You know, again, when the airport staffs it--but this is--
Congress has established this is a TSA responsibility, so it 
will actually save money for TSA in the long run on personnel 
cost. Hopefully, those assets can be redeployed back to the 
checkpoint, in general, to improve efficiency and bring more 
assets to those areas.
    Senator Cantwell. Well, as I said earlier on the canine 
program, I think all of these things--obviously, Sea-Tac being 
one of the fastest growing airports in the nation 3 years in a 
row makes us want to deploy everything that we can that helps 
us on security and efficiency, and, obviously, the canine units 
do it. And I think for the pressure, then, that it puts on the 
other airports, having these exit lanes being also deployed 
helps on the efficiency side, so all of that.
    Mr. White, you mentioned the issue of biometrics and some 
coordination on biometrics. How do you think that we come to a, 
if you will, standard that we feel comfortable with from a 
national and international basis?
    Mr. White. I think, first thing, on the U.S. side----
    Senator Cantwell. And I just mean on the technology.
    Mr. White. On the technology aspect.
    Senator Cantwell. Yes, just on the technology aspect of it.
    Mr. White. Whether one is right, better than the other, you 
know, that still could be determined. From our perspective, 
we're working, for instance, with CBP on the exit lanes right 
now into the U.S. to see how we can capture those passengers to 
ensure who's leaving. Is that same technology what should be in 
place at the checkpoint for TSA? Is that where it starts?
    So part of it, from our perspective, is what technology is 
best, whether it's fingerprint or other. It also ties into 
what's the efficiency of the airport. So you take Sea-Tac, 
trying to move more passengers, really, through the same 
terminal until the expansion starts. But you're moving more 
people through the same space. Can you use that technology, and 
which one is better, and where that standard comes from takes a 
lot of--lots more people that I know, that I am, that we have, 
and those are the studies that IATA does.
    So we've been working with other airports around the world 
in similar type fashions. Again, it's sharing of information, 
and work groups that are really involved with that sort of 
thing. The airlines' perspective is, what's the cost? You know, 
at the end of the day, there is a cost to all of this, and what 
makes it more efficient. Do we gain efficiency from it? Does it 
improve security? We have to look at all those factors.
    So technology, as it comes about, one over the other is 
what's--the latest and greatest. You've really got to delve 
down into it. So that's where we really want to focus with some 
of the--a lot of people in the airlines that we have that are 
really doing that day-to-day work and studying that sort of 
thing.
    Senator Cantwell. But we don't have a body yet that works. 
It's more of an informal discussion. Is that what you're 
saying?
    Mr. White. What we're finding is most governments are 
testing different things in different ways, and I don't know of 
a formal body, although there are--like through ICAO, there are 
working groups that are looking at those sorts of things as to, 
you know, what are the technologies and how do we implement 
them. IATA has been looking at the express lanes and how we can 
clear passengers quicker. Is the technology--and we could put 
it in with the check-in process--make it easier for a passenger 
to clear?
    Senator Cantwell. Well, we--myself and Senator Collins--
have worked on moving our borders to overseas airports and 
deploying these kinds of technologies as a way to get security 
before people enter the United States, and we think this is an 
important question. She and I have worked on the biometrics for 
quite some time now, and we think we should continue forward.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Madam Ranking Member. I want 
to thank you and also the Chair for convening today's hearing, 
and I want to thank our witnesses for participating in this 
important conversation.
    As this Committee moves closer to consider legislation to 
enhance TSA programs, including TSA's rail security efforts and 
improving aviation security, I'm encouraged that industry is 
actually engaged in working with us to address policy gaps and 
identify appropriate solutions.
    Mr. Alterman, as Chairman of TSA's Aviation Security 
Advisory Committee, can you speak to the agency's efforts to 
deploy credential authentication technology for detecting 
fraudulent identification documents at airport passenger 
checkpoints?
    Mr. Alterman. This goes to--we started that effort in ASAC 
as a result of insider threat issues that developed out of the 
Atlanta airport, and the ASAC gave 28 separate recommendations 
on insider threat, and many of those recommendations had to do 
with credentialing. We made those recommendations to TSA, and 
they have been moving forward on them. They've done a pretty 
good job on that. There were a couple of issues involving 
interagency issues that they couldn't do right away--the FBI's 
Rap Back program so we could figure out--we could get access to 
those.
    That's an ongoing issue. I personally don't know exactly 
where we are in detail on that. But, certainly, the 
credentialing issue is one that is of constant concern to us 
because of the potential ability to get fraudulent credentials. 
So the agency is working on that in response to our 
recommendations, and they are making progress on that. I 
honestly can't tell you exactly where they are in that process.
    Senator Duckworth. Well, we'll have to follow up with you 
on it. I want to also touch on the air cargo advanced screening 
pilot program that took place. As you know, it was established 
after authorities discovered two U.S.-bound packages from 
Yemen, and they contained viable bombs, capable of bringing 
down aircraft, and it was determined by forensic experts that 
they were designed to detonate midair over Chicago. They 
attributed the plot to Al Qaeda and the Arabian Peninsula.
    What's the current status--because it was a pilot program--
of the air cargo advanced screening pilot program, and what are 
the plans for developing this into something that's industry-
wide?
    Mr. Alterman. That's a very good question. It is not--the 
pilot program is not finished. The pilot program is ongoing. 
It's been ongoing for 6 years. We are currently waiting for a 
CBP rule that would make mandatory the filing of certain 
information to CBP. This is a cooperative program between CBP 
and the TSA. TSA would be then responsible for doing the 
checking when CBP got information that some of the packages 
might be suspect.
    We need to do that. We need to make that final. We need to 
make that final as quickly as possible, and we need to make it 
applicable to everybody. The hang-up as I know it right now is 
that we're still waiting for a CBP rule to make it mandatory, 
and I think that one of the problems that they're encountering 
is we do have this new administration's rule that you can't put 
in new rules without taking two away and the cost implications 
of that. My guess is that, bureaucratically, it may be hung up 
in that issue. I don't know. Mr. White may know a little bit 
more than I do on that.
    But you're absolutely correct. It's an issue that's 
ongoing. Our members have been participating. There are 
millions of packages that are screened that way now--not 
screened, but the information is given--and we need to make 
that universal.
    Senator Duckworth. Thank you.
    Mr. White, do you want to address that? Is that rule ready 
to go but it just can't be posted because of the new Trump 
administration----
    Mr. White. It has been going between CBP, TSA, and DHS. 
It's our understanding that the rule is very close, according 
to meetings with CBP last week, and that it's in its final 
version for proposed rulemaking. They may be able to not even 
have to have a proposed rule. They're looking to see if they 
can actually implement it under current rules.
    But the same as Mr. Alterman mentioned, we are very 
supportive of the ACAS program. We think that's something 
that--technology actually brings information together to 
enhance screening, and it's proven very well that it can be 
done. There are still some technology challenges that will be 
needed, but I think once it's implemented, it'll become the 
norm.
    Senator Duckworth. Thank you. I yield back.
    Senator Blunt [presiding]. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you. I have sort of two lines of 
questioning.
    Mr. Alterman, I wanted to talk to you about the 
segmentation at airports, and I want to ask you questions from 
a layman's perspective. We have Trusted Traveler, we have TSA 
Pre, we have now Clear, we have your regular lines, and I guess 
from a logistics standpoint, my question is at what point are 
we sort of taking a one-lane highway, widening it to five, and 
then having it merge back into one a mile later?
    I mean, I know that sounds, you know, borderline sassy. But 
it's a real question, because those of us who travel a lot sort 
of wonder whether there's not a point at which this just 
becomes how effectively an individual experienced traveler can 
sort of work the arbitrage in this system rather than increase 
throughput capacity. So I wonder how much thought has been 
given to that question. And can you reassure me that there is a 
strategic plan here and there is some strategic thinking rather 
than just new product offerings for individual travelers as we 
go along?
    Mr. Alterman. I'm probably the wrong one to ask that 
question of. We may have an airport that would have a better 
idea. But I sort of smiled when you mentioned that, because we 
have about five different ways of getting through security, and 
they all seem to converge at one point.
    Senator Schatz. At the security line, yes.
    Mr. Alterman. At the security line. I don't actually know 
the answer to that question.
    Mr. Weiler. Senator, I could speak to that a little bit.
    Senator Schatz. Sure, please.
    Mr. Weiler. I manage a small hub airport, so we have about 
a million passengers, and I actually had that same question 
about our checkpoint. We have two standard lanes and one 
PreCheck lane, and we're just about ready to get a Known Crew 
Member lane. So it's kind of that same thing. I do think the 
focus should continue to be on making all the main lines as 
efficient as possible.
    But even on like the Known Crew Member line, my 
understanding, from talking to our TSA personnel, is it's not 
like that's going to have to be staffed all day long. When they 
get a peak group in--we have a lot of pilots that live in our 
area that are traveling to other hub airports to do their 
things, and they'll get 10 of them in, put them in that line 
behind a long line, and then deploy assets over there to deal 
with them and move it on.
    So I agree. I'm kind of a believer now. We're excited about 
getting the Known Crew Member, but I also share your concerns. 
The focus should continue to be on increasing throughput 
through the main line.
    Senator Schatz. Thank you.
    Mr. Alterman--and feel free to hand it off, as you just 
did--I want to talk to you about the biometric data collection. 
I know there are a couple of pilot programs being implemented. 
Generally speaking, I think this is an exciting space, and even 
if I had reservations, which I do from the civil liberties 
standpoint, I think this is inevitable. I think faces will be 
in databases, but the question becomes sort of how you manage 
this process, recognizing our Fourth Amendment rights.
    So the question is: My understanding is that DHS has a 
requirement for a privacy impact assessment, and they're doing 
that on the CBP side. I'm wondering, you know, where we're 
going to be, first of all, specifically on the privacy impact 
assessment, and then, second, more generally, if you have 
private sector companies that do this biometric data analysis 
and provide these services to airports and hubs, do they keep 
the data? What's the understanding with respect to where those 
facial recognition data go?
    Mr. Alterman. I'm getting very good at not answering 
questions. I don't know the answer to that, but Mr. White has 
mentioned the biometrics in his testimony, and we have a 
technology expert here. Am I allowed to turn it over to them?
    Senator Schatz. Sure. This is working fine.
    Mr. White. From an airline perspective, as I mentioned 
earlier, our issue is we have emerging technologies of 
biometrics and which one is best or not. We see advantages, but 
where the data is stored is an issue, in general, from a global 
standard, because we have the European requirements on just the 
passenger data as to what we have that we submit already to the 
government.
    So I think some of that that we've already learned from the 
passenger data, your personal information when you make your 
reservation, that we're providing in the Advanced Passenger 
Information System is already--some of that information is 
probably related to the biometric side. So there's probably 
some preexisting study that's been done from that point.
    Senator Schatz. Ms. Pressnell, did you want to add 
anything?
    Ms. Pressnell. I cannot speak directly to biometrics, sir.
    Senator Schatz. So it just seems to me that for the 
Committee and staff and others to consider that it's not at all 
clear as we move forward--and we are. We're going to move 
forward with biometric data collection, and we should. But it's 
not a trivial question to ask--who gets the data? Does a 
private sector company own this IP? Is there a requirement for 
the destruction of these data sets? Does this need to be in 
statute?
    I think these are important questions, because we're moving 
forward apace on all of this, and it's a non-trivial question 
whether or not a private sector company will now be in 
possession of not just personally identifying information in 
the traditional sense, but also your face.
    Thank you.
    Senator Blunt. Another question, Senator Schatz, another 
point that came up earlier, too, is if we're going to do 
biometric data, do we need to have different models that use 
different biometrics, or would we be better off if we sort of 
directed this into one direction so it's not everybody's 
fingerprints and everybody's facial or everybody's iris or--
what do we--are we letting everybody collect everything, which 
would be another thought along that path you were pursuing?
    So the Chairman of the Full Committee always comes in with 
really the hard questions very near the end of the hearing when 
the witnesses are basically worn out and least resistant. So 
I'll turn it over to the Chairman.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Senator Blunt, and I know at this 
point in the hearing, too, that everything has been asked, so 
I'm sure you've answered these questions. But I do want to 
thank you, Senator Blunt, for having the hearing today to 
discuss the TSA Modernization Act that we introduced yesterday 
along with Senators Nelson and Cantwell.
    As with the FAA reauthorization, I'm pleased that we came 
to agreement on a package of practical reforms to improve 
aviation security, and building on the successful enactment of 
a host of security enhancements last year, I think this 
authorizing legislation would make important improvements to 
aviation security as well as the passenger travel experience. 
In developing the legislation, the Committee engaged with TSA 
officials and with industry stakeholders to ensure that 
workable solutions with the greatest impact were included. In 
particular, I appreciate the effort of those represented on 
this panel, the TSA, and others to help shape the legislation.
    We plan to consider the bill at our markup next week, and 
so I just have a few questions that perhaps build on or maybe 
are redundant ones that have already been asked. But you talked 
a little bit about some of these issues, I know already. But 
this past May, the Aviation Security Advisory Committee--and 
I'll direct this to Mr. Alterman--which you chair, released a 
Checkpoint of the Future report required by the FAA Extension 
Safety and Security Act of 2016. The report made a series of 
industry and stakeholder recommendations to TSA outlining how 
the agency can improve the efficiency and effectiveness of 
passenger screening checkpoints at U.S. airports.
    The question is: In the Modernization Act, we would 
formally authorize the Innovation Task Force to assess the 
impact of using some of these exciting new technologies such as 
biometrics. Do you think that these and other provisions in the 
bill will truly help TSA to develop a Checkpoint of the Future 
while also increasing security, and what are the key things to 
look for in implementation of that?
    Mr. Alterman. Thank you, Mr. Chairman. I think that we're 
moving forward well on that issue. I have to do a little bit of 
a shout-out to our new Security Technology Subcommittee, which 
is a committee that was actually formed after the recent Act. 
They did one heck of a job in turning out that report, and they 
should get the credit for that.
    TSA has accepted that report and is moving forward. I think 
in combination with the Innovation Task Force, either as it is 
today or as it will be after this legislation, hopefully, I 
think that the agency is committed to doing those things. But 
the devil is always in the details, and there are a whole lot 
of moving parts in working toward a Checkpoint of the Future 
that both enhances security and enhances passenger acceptance 
of them and passenger throughput.
    Those are tough issues, and I think that what the report 
did is set down a baseline for TSA to consider, and I hope that 
that report is used by the Innovation Task Force in developing 
new recommendations for TSA. It's a fairly new report. I 
believe it was submitted to the Congress in July, and things 
don't always move as quickly as a lot of us like. But I think 
it was a very good start, and I'm hoping that we can look 
forward to some good results out of that.
    I might say that in terms of ASAC and in terms of what we 
do, there has been sort of a change in the way we operate. It 
used to be--we understand that we're just an advisory 
committee. We can't tell TSA to do things. We just give them 
advice. What we have told them, though, in the past few years 
is ``If you accept our recommendations, we are going to follow 
through on implementation.'' We're not just going to let it 
sit. So we intend to follow through and find out exactly how 
they're going to react and how they're going to implement those 
recommendations. I'm not sure just having them accept 
recommendations is good enough. We need to follow through on 
the implementation.
    The question is a good one, and it's a little early to tell 
exactly how it's going to come out. But I think it's a good 
start.
    The Chairman. Well, we would look forward to working with 
you to ensure that those do get implemented, given the advisory 
role of your Task Force.
    Ms. Pressnell, one of the major themes of the TSA 
Modernization Act is finding ways to speed up TSA's deployment 
of the latest security technology at airports. For example, one 
provision instructs TSA to authorize the third-party testing 
and evaluation of security screening equipment in an effort to 
enable faster deployment of the latest and most effective 
screening technologies.
    Can you explain how this and other provisions in this bill 
will assist TSA in getting the most advanced technology out 
into the field at a faster rate than it is currently able to?
    Ms. Pressnell. Mr. Thune, thank you so much for that 
question. The bottom line is it takes too long. It simply takes 
too long to get technology from start to finish and deployed in 
the airports in large part because the process for testing 
and--setting requirements and then testing gets bogged down. So 
lots of times, we have a technology that goes through the lab, 
it gets certified, and then we go on to operational testing, 
where we end up getting through testing, and then we get bogged 
down by administrative type reports.
    What the third-party testing process would do--and it would 
be extraordinarily helpful to us--is that it would cut down 
significantly on the time that it would take to get us through 
the process. That primarily would be because we could be 
testing things that are the non-requirements that could get us 
through a lot faster. We spend a lot of time testing and then 
re-testing and then, of course, going through the reporting 
phase that can sometimes take months. But going through a 
third-party testing process would certainly help us field 
technology a lot faster simply because we're able to, in some 
cases, with your bill, maybe do some of the testing in our own 
facilities and other contracting facilities where this type of 
thing could occur.
    The bottom line for third-party testing to really make it 
work, though, is to make sure that when it's complete that TSA 
will readily accept the results. That's a key factor for us 
because we're taking our technology--it takes a lot of money to 
go through the process, but if it's not accepted at the end, 
it's just going to slow down the process even more. So that 
would be the only limitation that we can see, and we would 
certainly recommend that TSA accept the results at the end of 
the testing process.
    The Chairman. OK. Mr. Chairman, my time has expired. Thank 
you.
    Senator Blunt. Thank you, Chairman.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    I'd like to ask members of the panel--and I know you're 
familiar with the shift in financial burden with TSA's budget 
moved onto, in effect, passengers. Do you agree that the 
airlines themselves ought to pay for a portion of TSA's costs? 
Why don't we begin on your right and go down the panel.
    Mr. Weiler. Senator, I don't know that I have a position on 
that one way or another. I do know that the airports are 
concerned about the cost being passed along to them in the 
environment that we're currently operating under. Airports are 
very concerned about keeping cost--we all want to deploy new 
technology. At the end of the day, for us, it's law 
enforcement, and we're very pleased with the bill, that it does 
increase and puts more scrutiny on public areas, which should 
be, but also it provides funding for that. As far as the 
airlines, I don't know that I can make a position on that, sir.
    Mr. Alterman. I'm not sure I have a position on that, 
either, Senator. It's a tough issue because when you talk about 
airlines--and maybe Mr. White can answer this better than I 
can. I've gotten very good at passing questions to Mr. White 
since I don't represent the passenger side of the industry. 
When airlines--my impression is that when airlines have to pay 
for it, eventually the passenger has to pay for it because 
there's a pass-through. But I'm not sure that's the case, and, 
actually, I hate to duck the question, but I really haven't 
thought about that enough to really give you a definitive 
answer.
    Ms. Pressnell. Mr. Blumenthal, I'm sorry to have to--to not 
be able to answer that, either. Our coalition has not taken a 
position on that, sir.
    Mr. White. So someone that does represent the airlines--if 
you take a look at the security fee, I guess the issue--this is 
a national security issue. This isn't just airline security. 
This is a national security issue, and when it comes to that, 
it affects governments and it affects the economies. So we do 
not believe it's necessarily the need for the airline to pay 
that fee, because we're just a portion of the user. But we also 
affect your economies and bring that transport that makes your 
economies work around the world.
    So we look at it that way, that we're just part of that 
system, and where does it come down at the end of the day. 
We've been talking about this issue ever since 9/11, but from 
my honest perspective, no, we don't believe we should have that 
fee.
    Senator Blumenthal. Well, as you know, all of you--and, 
unfortunately, the consumer side of this argument is not 
represented, and I respect that your organizations have not 
taken a position. But Congress acquiesced to the airlines' 
request--maybe I should say demands--to eliminate their 
responsibility to contribute about $400 million, which they had 
been contributing, correct?
    Mr. White. Correct.
    Senator Blumenthal. And they had been required to do so 
since, I think, September 11. One of the publications--I'm 
looking right now at my notes--called this one of the top 
lobbying victories of 2013. So that victory blew a massive hole 
in TSA's budget. When we talk about the effectiveness of TSA, 
we're really talking about what it does with the resources that 
it has. If the resources are deprived, then its effectiveness 
is undermined.
    Next week, we're going to consider a long-term TSA bill--I 
think it's next week--and that bill proposes shifting the 
increase that was enacted in 2013 back to TSA. But I guess the 
question of the moment is whether--in shifting the security fee 
that customers pay back to TSA, shouldn't we also require that 
the airlines at least pay a portion of it, because it would 
give them some real skin in this game.
    I understand the airlines affect the economy. So do the 
railroads. So does every method of transportation. They all 
need some security, and I respectfully suggest that maybe you 
can ask your organizations whether they should take a position, 
and that they should.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Blumenthal.
    Chairman Thune, any other questions?
    [No verbal response.]
    Senator Blunt. Well, thanks to the panel for being here. I 
believe it's the Chairman's intention to mark this bill up 
maybe even as early as next week, and your testimony helped a 
lot today. Thank you all.
    The Committee is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Brian Weiler
Airport Security Infrastructure Funding
    In recent years, airports have been improving and expanding their 
security infrastructure to deal with an increasing number of enhanced 
threats on airports and air travelers. However, as threats become more 
complex and nonsterile areas of airports are more frequently targeted, 
I believe airports need additional assistance to implement the 
necessary airport security infrastructure improvements to protect the 
traveling public.
    When this Committee marked up the FAA Reauthorization bill, I 
introduced two bipartisan amendments, which were included in the bill 
that would help airports use existing funding sources for security 
infrastructure projects. And when TSA Administrator Pekoske testified 
before this Committee at his nomination hearing, I asked him about 
creating an airport security-focused grant program at TSA and he said 
he would look into it.

    Question 1. Can you talk about your experiences with existing TSA 
airport security-focused grant programs, and what you would like to see 
in a TSA grant program to ensure that airports are able to effectively 
meet their security needs?
    Answer. Unfortunately, there are no existing ``TSA security focused 
grant programs'' of any significance for airports to apply for at this 
time. However, airports would welcome new Federal resources from TSA to 
help meet existing Federal mandates and to further enhance security. If 
grant funds were made available, we would ask for flexibility to meet 
the most pressing needs at individual facilities. Specific needs can 
vary airport to airport depending on local conditions.
    While additional flexibility would be welcomed, such as giving 
airport operators the discretion to utilize AIP funds or PFCs for some 
security-related items, we urge Congress to avoid targeting those 
programs for significant security investments. AIP and PFC revenues are 
already scarce, and further diluting those resources would have a 
negative impact on many other critical airport infrastructure 
priorities.

    Question 2. Do you support the proposal that would redirect airline 
passenger security fees, which are right now used to offset unrelated 
government funding, back to aviation security purposes?
    Answer. The airport community fully supports efforts to redirect 
aviation security fee collections from deficit reduction to aviation 
security purposes. These revenues could be utilized to support a robust 
TSA grant program envisioned in question 1 and to meet other security 
needs across the aviation system, which include LEO reimbursement to 
airports, the acquisition and deployment of enhanced security 
technology, and other high-priority imperatives.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Stephen Alterman
Airport Security Infrastructure Funding
    In recent years, airports have been improving and expanding their 
security infrastructure to deal with an increasing number of enhanced 
threats on airports and air travelers. However, as threats become more 
complex and nonsterile areas of airports are more frequently targeted, 
I believe airports need additional assistance to implement the 
necessary airport security infrastructure improvements to protect the 
traveling public.
    When this Committee marked up the FAA Reauthorization bill, I 
introduced two bipartisan amendments, which were included in the bill 
that would help airports use existing funding sources for security 
infrastructure projects. And when TSA Administrator Pekoske testified 
before this Committee at his nomination hearing, I asked him about 
creating an airport security-focused grant program at TSA and he said 
he would look into it.

    Question 1. Can you talk about your experiences with existing TSA 
airport security-focused grant programs, and what you would like to see 
in a TSA grant program to ensure that airports are able to effectively 
meet their security needs?
    Answer. Although I have no direct experience in the area of airport 
grant programs, it is clear that, in a time of limited resources, such 
programs would be appropriate to help airports meet their growing 
security responsibilities. Such grants might be used to help airports 
reconfigure passenger checkpoints to include new technologies and to 
implement more robust strategies to address the issue of insider 
threats. Having said that, since I am not an expert in this area (or in 
the area of how to pay for such grants), it might be more appropriate 
to address this question to the airport community.

    Question 2. Do you support the proposal that would redirect airline 
passenger security fees, which are right now used to offset unrelated 
government funding, back to aviation security purposes?
    Answer. I absolutely support a proposal to ensure that airline 
passenger security fees are redirected to pay for security enhancements 
and not for unrelated purposes. It is simply unconscionable that these 
fees are being used for purposes wholly unrelated to their stated 
purpose.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Tammy Duckworth to 
                            Stephen Alterman
    Question. You are to be commended for your work as Chairman of the 
Aviation Security Advisory Committee, or ``ASAC.'' The ASAC provides 
advice to the TSA Administrator on aviation security matters. Its 
efforts are well-regarded.
    The aircraft maintenance technician community is not represented on 
the ASAC, although pilots and flight attendants do have representation 
on the ASAC. Aircraft maintenance is among the primary career fields in 
the airline industry. Would a craft specific voice on behalf of 
aircraft maintenance technicians contribute to the ASAC mission?
    Answer. Positions on the Aviation Security Advisory Committee 
(ASAC) are appointed by the TSA Administrator to provide a broad 
representation of aviation stakeholders. The labor community is 
currently well represented by various organizations and, without 
knowing more, it is unclear to me whether having maintenance technician 
representation would, or would not, be appropriate. That decision is up 
to the Administrator.
    Having said that, much of the work of ASAC is done at the 
subcommittee level. ASAC subcommittees consist, not only of ASAC 
members, but also of Subject Matter Experts who lend their experience 
in areas being discussed. It occurs to me that input from the 
maintenance technician community would be appropriate when issues 
within its area of expertise are being discussed by one or more 
subcommittees.
    Finally, with respect to full ASAC membership, it is my 
understanding that TSA will shortly be soliciting new applications for 
membership by publishing a notice in the Federal Register. To the 
extent that any maintenance technician representatives are interested, 
they should be encouraged to apply.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Sissy Pressnell
Airport Security Infrastructure Funding
    In recent years, airports have been improving and expanding their 
security infrastructure to deal with an increasing number of enhanced 
threats on airports and air travelers. However, as threats become more 
complex and nonsterile areas of airports are more frequently targeted, 
I believe airports need additional assistance to implement the 
necessary airport security infrastructure improvements to protect the 
traveling public.
    When this Committee marked up the FAA Reauthorization bill, I 
introduced two bipartisan amendments, which were included in the bill 
that would help airports use existing funding sources for security 
infrastructure projects. And when TSA Administrator Pekoske testified 
before this Committee at his nomination hearing, I asked him about 
creating an airport security-focused grant program at TSA and he said 
he would look into it.

    Question 1. Can you talk about your experiences with existing TSA 
airport security-focused grant programs, and what you would like to see 
in a TSA grant program to ensure that airports are able to effectively 
meet their security needs?
    Answer. Airports must be able to meet the growing demands of air 
travelers and must be provided with the financial resources to help 
meet critical mission needs to ensure that the highest level of 
screening capabilities are in place. The Security Manufacturers 
Coalition (SMC) supports the recommendations contained in the Aviation 
Security Advisory Committee (ASAC) report titled ``Improving 
Checkpoints at U.S. Airports'' to establish a multi-year program that 
includes a capital fund for equipment that is similar to the mandatory 
Aviation Security Capital Fund that provides $250 million annually for 
the Electronic Baggage Screening Program (EBSP). Creating a reliable 
and consistent funding resource is needed to ensure the highest 
screening capabilities are deployed at U.S. airports.

    Question 2. Do you support the proposal that would redirect airline 
passenger security fees, which are right now used to offset unrelated 
government funding, back to aviation security purposes?
    Answer. The Security Manufacturers Coalition (SMC) recognizes that 
Congress must deal with substantial funding constraints and demands on 
its limited resources in an attempt to meet the Aviation and 
Transportation Security Act (ATSA) to pay for aviation services as well 
as the acquisition, operation, and maintenance of equipment. However, 
The Bipartisan Budget Act of 2013 directed the diversion of a portion 
of the fee through 2023 to pay for non-aviation activities such as debt 
reduction. Approximately $1.28 billion of the fee will be diverted in 
FY 2017. The SMC believes that inconsistent funding levels as well as 
the diversion of fees make it difficult for TSA to sustain its mission 
and keep pace with the recapitalization and acquisition of next-
generation security technology equipment. The SMC supports the 
recommendations of the Aviation Security Advisory Committee (ASAC) to 
end the diversion of a portion of the Passenger Security Fee that is 
now dedicated for deficit reduction to pay for checkpoint development 
and deployment of new technology enhancements. Longer term, we support 
a multi-year approach that includes a checkpoint equipment capital 
fund, similar to the checked baggage program, to provide consistent 
availability of resources for technology acquisitions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Michael White
Airport Security Infrastructure Funding
    In recent years, airports have been improving and expanding their 
security infrastructure to deal with an increasing number of enhanced 
threats on airports and air travelers. However, as threats become more 
complex and nonsterile areas of airports are more frequently targeted, 
I believe airports need additional assistance to implement the 
necessary airport security infrastructure improvements to protect the 
traveling public.
    When this Committee marked up the FAA Reauthorization bill, I 
introduced two bipartisan amendments, which were included in the bill 
that would help airports use existing funding sources for security 
infrastructure projects. And when TSA Administrator Pekoske testified 
before this Committee at his nomination hearing, I asked him about 
creating an airport security-focused grant program at TSA and he said 
he would look into it.

    Question 1. Can you talk about your experiences with existing TSA 
airport security-focused grant programs, and what you would like to see 
in a TSA grant program to ensure that airports are able to effectively 
meet their security needs?
    Answer. We would like to see grant money put into a joint effort 
between IATA, the TSA, airports, educational institutions, and other 
strategic partners to develop future screening technologies and 
processes to improve passenger facilitation while also enhancing 
aviation security. There also needs to be more focus on cyber security 
threats, the use of biometrics, IT programming for risk targeting, and 
the development of new systems.
    We also think there is a need to look at many of the current 
security programs to determine if they are of value and are truly 
reducing risk. For instance, do certain manpower intensive programs, 
such as the Federal Air Marshal program, offer as much risk reduction 
value versus using the same funds for visible canine teams, new 
terminal designs, or improved screening technology? Further, we support 
increased participation in trusted travelers programs like TSA Pre3 to 
reduce security screening wait times.

    Question 2. Do you support the proposal that would redirect airline 
passenger security fees, which are right now used to offset unrelated 
government funding, back to aviation security purposes?
    Answer. Yes, we strongly supports using passenger security fees for 
their intended purpose of aviation security as opposed to being 
diverted and used for unrelated government purposes. As you may be 
aware, Congress has diverted a total of $15.79 billion in passenger 
security fees through Fiscal Year 2025 to the general fund. We also 
believe the TSA should be held accountable for providing more timely 
and accurate justifications for what it plans to spend on aviation 
security programs.

                                  <all>

              
      
</pre></body></html>
